APPENDIX

t

1

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Third
Circuit
App. 1
(March 2, 2020)
Appendix B Order and Judgment Order in the
United States District Court for the
Western District of Pennsylvania
App. 19
(February 4, 2019)
Appendix C Opinion and Judgment in the United
States Court of Appeals for the Third
Circuit
App. 25
(October 5, 2016)
Appendix D Memorandum Order and Judgment
Order in the United States District
Court for the Western District of
Pennsylvania
App. 65
(September 30, 2015) . .
Appendix E Constitutional Provision
Involved...........................

App.81

Appendix F Second Amended Complaint
(November 24, 2014).................... App. 82
Appendix G Affidavit of Elliott J. Schuchardt
(January 7, 2015).................... App.119
Appendix H Affidavit of William E. Binney
(July 4, 2017)............................. App. 124

App. 1

APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1366
[Filed March 2, 2020]
ELLIOTT J. SCHUCHARDT,
individually and doing business
as the Schuchardt Law Firm,
on behalf of himself and all
others similarly situated,
Appellant
v.
PRESIDENT OF THE UNITED
STATES OF AMERICA; DIRECTOR
OF NATIONAL INTELLIGENCE;
DIRECTOR OF THE NATIONAL
SECURITY AGENCY AND CHIEF
OF THE CENTRAL SECURITY
SERVICE; DIRECTOR OF THE
FEDERAL BUREAU OF
INVESTIGATION

)
)
)
)
)
)
)
)
)
)

)
)
)
)
)
)
)
)
)
. )

App. 2

Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2-14-cv-00705)
District Judge: Honorable Cathy Bissoon
Argued September 23, 2019
Before: McKEE, AMBRO, and ROTH, Circuit Judges
(Opinion filed: March 2, 2020)
Elliott J. Schuchardt (Argued)
6223 Highland Place Way
Suite 201
Knoxville, TN 37919
Counsel for Appellant
Joseph H. Hunt
Assistant Attorney General
Scott W. Brady
United States Attorney
Joseph F. Busa (Argued)
H. Thomas Byron III
United States Department of Justice
Civil Division, Appellate Staff .7537
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
Counsel for Appellees

App. 3

OPINION*
AMBRO, Circuit Judge
Elliott J. Schuchardt alleges that the bulk data
collection programs of the National Security Agency
(“NSA”) under the Foreign Intelligence Surveillance
Act (“FISA”), 50 U.S.C. § 1801 et seq., violate the
Fourth Amendment because they allow the
Government to intercept, access, monitor, and store all
or substantially all U.S. domestic e-mail without
probable cause. Pl.’s App. 138-67. He filed suit in 2014
against the President of the United States, the Director
of National Intelligence, the Director of the NSA, and
the Director of the Federal Bureau of Investigation
(“FBI”). After the District Court dismissed
Schuchardt’s suit for lack of facial standing under
Federal Rule of Civil Procedure 12(b)(1), we reversed.
See Schuchardt v. President of the U.S. (“Schuchardt
F), 839 F.3d 336 (3d Cir. 2016).
In a facial attack, we review only “the allegations of
the complaint and documents referenced therein and
attached thereto, in the light most favorable to the
plaintiff.” Gould Elecs. Inc. v. United States, 220 F.3d
169, 176 (3d Cir. 2000). However, if the defendant
contests the pleaded jurisdictional facts, “the court
must permit the plaintiff to respond with evidence
supporting jurisdiction.” Id at 177 (citing Int’lAss’nof

This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App. 4
Machinists & Aerospace Workers v. Nw. Airlines, Inc.,
673 F.2d 700, 711-12 (3d Cir. 1982)).
On remand, the District Court held that Schuchardt
failed to rebut the evidence the Government submitted
to challenge his factual standing. We agree and thus
affirm the District Court’s ruling.
A. Procedural Background
Schuchardt specifically alleged that the NSA
operates a program known as PRISM through which it
collects “massive quantities of e-mail and other data
created by [U.S.] citizens” “directly from the servers” of
U.S. service providers like Google, Microsoft, Yahoo,
Facebook, Dropbox, and Apple. Pl.’s App. 145. As “a
consumer of various types of electronic communication,
storage, and [I]nternet-search services” ofthose service
providers, id. at 156, Schuchardt further asserted that
the Government “obtained direct access to the servers”
of the providers and was “intercepting, accessing,
monitoring and/or storing [his] private communications
. . . .” Id. at 145, 156, 158.1
Schuchardt supplemented his complaint with two
categories of exhibits. First, he submitted reports from
the Washington Post and Guardian newspapers about

1 The Government argues that this case is about PRISM and not
other programs. Gov’t Br. 27—31. That question was never squarely
before the District Court. Nor is it before us. The Government did
not argue on remand that Schuchardt was not permitted to submit
non-PRISM evidence, and in fact itself submitted evidence that
goes beyond PRISM. See Gov’t’s Add. A; Gov’t’s Add. B. Schuchardt
correctly points out that his complaint is broad enough to include
programs beyond PRISM. Schuchardt Reply 12.

App. 5
classified documents leaked by former NSA contractor
Edward Snowden, as well as excerpts of the materials
themselves. These exhibits refer to an NSA program
engaged in the bulk collection of domestic e-mail
metadata. Id. at 91—131. Several of the documents
appear to be internal NSA slides. One is titled “Dates
When PRISM Collection Began For Each Provider,”
and lists dates when several service providers began
collection. Another slide, “New Collection Posture,”
includes slogans such as “Exploit it All.” Id. at 109-10.
The second category of documents Schuchardt
attached contained affidavits filed in support of the
plaintiffs in Jewel v. NSA, 965 F. Supp. 2d 1090 (N.D.
Cal. 2013), a separate case challenging the NSA’s
interception of internet traffic. Id. at 1098. The
affidavits were of former NSA employees William E.
Binney, Thomas A. Drake, and J. Kirk Wiebe, who
asserted that after September 11, 2001, the agency
developed an expansive view of its own surveillance
authority. Pl.’s App. 186—219. Binney stated that he
was the creator of the technology the Government uses
today to conduct large-scale data collection, and that
members of his team told him the Government
implemented intelligence activities after September 11
known as the President’s Surveillance Program that
involved the collection of domestic e-mails without the
privacy protections built into other NSA programs. Id.
at 187-88.
The District Court dismissed in 2015 Schuchardt’s
complaint for lack of standing. A Rule 12(b)(1) motion
under the Federal Rules of Civil Procedure to dismiss
for lack of subject matter jurisdiction may be treated as

App. 6
either a facial or factual challenge. See Mortensen v.
First Fed. Sav. & Loan Assn, 549 F.2d 884, 891 (3d
Cir. 1977).
The District Court concluded, for facial challenge
purposes, that Schuchardt had “identified no facts from
which [it] reasonably might infer that [the plaintiffs]
own communications have been targeted, seized or
stored.” Pl.’s App. 14-24. As noted, we reversed in 2016
and concluded that his allegations “plausibly stated an
injury in fact personal to” him “as a facial matter.”
Schuchardt I, 839 F.3d at 338. Thus we considered the
exhibits Schuchardt submitted and afforded his
pleadings the presumption of truth. Though the
Government disputed Schuchardt’s allegations and
submitted evidence, we could not, on a facial attack,
consider its submissions. Id. at 346, 352-53. Finally,
we noted that the Government was “free upon remand
to make a factual jurisdictional challenge to
Schuchardt’s pleading.” Id. at 353.
On remand, the parties agreed that, rather than
engage in discovery as to jurisdiction, the Government
would make an informal information disclosure; if
Schuchardt was not satisfied, he could resume the
litigation. The District Court directed Schuchardt to
inform it “whether or not this case w[ould] be dismissed
based on the information provided . . . .” Pl.’s App. 10.
Thereafter, Schuchardt did not make any discovery or
extension requests. The Government filed a renewed
motion to dismiss, and Schuchardt filed a response
relying on new affidavits from Binney and Wiebe. Id. at
63-66. Schuchardt conceded at oral argument that he
did not make any discovery or extension requests nor

App. 7
ask for a hearing to qualify Binney and Wiebe as
experts.
The District Court issued an order in February 2019
dismissing Schuchardt’s case for lack of standing on a
factual challenge. Pl.’s App. 63. It concluded that the
Government showed that it “did not engage in dragnettype collection activity,” and in support of that
conclusion it incorporated “by reference, as if fully
restated, the evidence and arguments recited in [the
Government’s] opening and reply briefs.” Id. at 64.
Moreover, the documents Schuchardt submitted were
inadmissible and did not create a factual dispute as to
his standing. The Court went on to state that, “[e]ven
permitting all of [Schuchardt’s] evidence—which . . .
[was] restricted to the recent affidavits of [] Binney and
Wiebe,” and the documents attached thereto, the
Government’s “positions carry the day.” Id. at 64—65.
Schuchardt’s “post remand efforts” were
“underwhelming” and merely amounted to taking the
same evidence previously before the District Court and
“filter[ing] it through the mouthpiece of purported
experts.” Id. at 65.2
B. Jurisdiction and Standard of Review
The District Court had jurisdiction under 28 U.S.C.
§ 1331. We have jurisdiction per 28 U.S.C. § 1291.

2 Because it incorporated the Government’s briefs in their entirety,
we discuss the evidence and arguments therein as the Court’s own
decision. We nonetheless note that the wholesale adoption of one
side’s briefs is a practice we discourage. See In re Complaint of
Luhr Bros., Inc., 157 F.3d 333, 338 (5th Cir. 1998); Walton v.
United Consumers Club, Inc., 786 F.2d 303,313-14 (7th Cir. 1986).

App. 8
“When reviewing an order dismissing a claim for lack
of subject matter jurisdiction, we exercise plenary
review over legal conclusions and review findings of
fact for clear error.” Adorers of the Blood of Christ u.
Fed. Energy Reg. Comm’n, 897 F.3d 187, 193 (3d Cir.
2018) (citation omitted). We review the District Court’s
evidentiary findings for abuse of discretion. “In order to
justify reversal, a district court’s analysis and resulting
conclusion must be arbitrary or irrational.” United
, States v. Bailey, 840 F.3d 99, 117 (3d Cir. 2016)
(citation and quotation marks omitted).3
C. Rule 12(b)(1) Factual Challenge
On a Rule 12(b)(1) factual challenge, the plaintiff
has the burden of proof, Mortensen, 549 F.2d at 891,
and the burden of persuasion, Gould Elecs Inc., 220
F.3d at 178. Thus “a 12(b)(1) factual challenge strips
the plaintiff of the protections and factual deference
provided under 12(b)(6) review” for a typical motion to
dismiss on the merits, Hartig Drug Co. Inc. v. Senju
Pharm. Co. Ltd., 836 F.3d 261, 268 (3d Cir. 2016)
(emphasis added) (citation omitted), and under facial

3 Schuchardt devoted much of his brief to the merits of this case.
Schuchardt Br. 43-55. The District Court did not reach the merits,
as it dismissed on a Rule 12(b)(1) motion. Accordingly, we do not
consider his arguments as to the merits. Schuchardt also cited for
the first time in his opening brief to non-record evidence (for
example, a statement by a government scientist) that every e-mail
sent in the United States goes into a Government database.
Schuchardt Br. 22, 38. With rare exceptions not in play here, we
will not consider evidence outside the record. See Reed v. Phila.
Bethlehem & New England R.R. Co., 939 F.2d 128, 133 (3rd Cir.
1991).

App. 9
12(b)(1) review, see CNA v. United States, 535 F.3d 132,
139 (3d Cir. 2008).
It is true that a “jurisdictional finding of genuinely
disputed facts is inappropriate when the jurisdictional
issue and substantive issues are so intertwined that
the question of jurisdiction is dependent on the
resolution of factual issues going to the merits of an
action.” Davis v. Wells Fargo, 824 F.3d 333, 348 (3d Cir.
2016) (citation omitted). When a case raises a disputed
factual issue that goes both to the merits and
jurisdiction, district courts must “demand less in the
way of jurisdictional proof than would be appropriate
at a trial stage.” Mortensen, 549 F.2d at 892. Although
we have not defined the contours of the “less in the way
of jurisdictional proof’ standard, we have held that
“[bjecause at issue in a factual 12(b)(1) motion is the
trial court’s jurisdiction^ its very power to hear the
case [,] there is substantial authority that the trial court
is free to weigh the evidence and satisfy itself as to the
existence of its power to hear the case.” Id. at 891. “The
form of the inquiry is flexible . . . : ‘As there is no
statutory direction for procedure upon an issue of
jurisdiction, the mode of its determination is left to the
trial court.’” Id. at 891 n.16 (quoting Gibbs v. Buck, 307
U.S. 66, 71-72 (1939)).
This is not a case where Schuchardt presented
competent evidence that the District Court discounted
or where it weighed competing evidence presented by
the Government and Schuchardt.4 The Court

4 This is also not a case where the Government refused to turn over
discovery related to its intelligence-gathering activities.

App. 10
considered the evidence the Government submitted to
challenge Schuchardt’s standing, stated that the
burden of proof was on Schuchardt, gave him an
opportunity to be heard, and considered his
submissions in detail. On this record, the Court held
that he did not create a dispute of material fact as to
his standing. See CNA, 535 F.3d at 144-46 (affirming
dismissal where plaintiffs were heard on the
jurisdictional issue but failed to present evidence
creating a factual dispute as to subject matter
jurisdiction). It did not err by considering the
admissibility of Schuchardt’s submission, as required
expressly by some Circuits. SeeMcPhail v. Deere & Co.,
529 F.3d 947, 954 (10th Cir. 2008); Meridian Sec. Ins.
Co. v. Sadowski, 441 F.3d 536, 540, 542 (7th Cir. 2006).
D. The District Court’s Evidentiary Rulings
Thus we turn to the evidentiary rulings of the
District Court. It held that the documents Schuchardt
submitted on remand were unauthenticated and
contained hearsay, and that Binney and Wiebe’s
opinions did not meet the reliability requirements for
admission of expert testimony. Gov’t’s Add. A 8—9,
25-26; Gov’t’s Add. B 6-7.5 The Court considered
Schuchardt’s lack of evidence in light of the

Schuchardt made no discovery requests, and the Court did not rule
on any applicable national security privileges.
5 The Government inaccurately argues that Schuchardt’s opening
brief failed to address the evidentiary holdings. Gov’t Br. 23.
Schuchardt did argue, if summarily, that the Court understated
Binney’s expertise and that he could have authenticated the
documents. Schuchardt Br. 30-33.

App. 11
Government’s admissible submission and concluded
that Schuchardt failed to meet his burden of proof.
1. Schuchardt Presented Unauthenticated
Documents.
A party seeking to rely on a piece of evidence must
offer proof sufficient to support a finding that the item
is what that party claims it to be. Fed. R. Evid. 901(a);
United States v. Browne, 834 F.3d 403, 408 (3d Cir.
2016). That evidence “must itself be admissible.” In re
Japanese Elec. Prods. Antitrust Litig., 723 F.2d 238,
285 (3d Cir. 1983). As for the purported NSA slides,
Pl.’s App. 108-13, Schuchardt did not explain what
they were, other than describing them as the “Snowden
documents,” Gov’t’s Add. A 8-9, 25-26. The District
Court could only speculate about what they were. The
origin and nature of the new documents attached to
Binney’s affidavit on remand were equally dubious. The
new documents included maps showing “tap points”
where the NSA connects into service providers’
networks and slides explaining collection. Pl.’s App.
244—47. Schuchardt argues that Binney and Wiebe
authenticated the documents in their affidavits,
Schuchardt Reply 6, because those documents related
to programs they created and worked on, Pl.’s App.
231, and because Binney obtained them from
publications, which in turn allegedly got the documents
from Snowden, id. at 232. The Court correctly rejected
this argument because Binney claimed no personal
knowledge that the documents he obtained from the
publications were those allegedly misappropriated by
Snowden. Gov’t’s Add. B 6—7. Neither Binney nor

App. 12
Wiebe claimed he created the documents or to know
who did.
Schuchardt’s argument that the Snowden
documents were authenticated by the Government’s
admissions that Snowden misappropriated documents
also fails. Any general admissions by Government
officials that Snowden stole documents did not
authenticate the specific documents Schuchardt
submitted to the Court. See ACLU v. U.S. Dep’t of
State, 878 F. Supp. 2d 215, 224 (D.D.C. 2012). Hence
there was no abuse of discretion in ruling that those
documents were not properly authenticated.
2. Schuchardt Presented Evidence Based
on Hearsay.
Hearsay is any statement, other than one made by
a declarant while testifying at the trial or hearing,
“offerfed] in evidence to prove the truth of the matter
asserted.” Fed. R. Evid. 801. It is generally
inadmissible as evidence. See United States v. Pelullo,
964 F.2d 193, 203 (3d Cir. 1992). The District Court
concluded that the NSA slides “constitute written outof-court statements regarding PRISM’s operation that
[Schuchardt] offers for the truth of the matters
asserted,” and are inadmissible hearsay. Gov’t’s Add. A
26. It reached the same conclusion regarding the new
documents attached to Binney’s affidavit because
Binney claimed no personal knowledge of the
documents and obtained them from journalists, who
allegedly obtained them from Snowden, so that “[e]ach
link in this chain of custody is . . . predicated on . . .
hearsay.” Gov’t’s Add. B 6-7. As for the newspaper
articles and editorials, the Court held that they too

App. 13
were hearsay. Schuchardt offered no substantial
argument why these materials were subject to a
hearsay exception. We accordingly affirm the District
Court in barring them.
3. Schuchardt Failed to Qualify His Expert
Witnesses.
Federal Rule of Evidence 702 governs the use of
expert testimony in federal courts and imposes three
threshold considerations: qualifications, reliability, and
fit. See In re Paoli R.R. Yard PCB Litig., 35 F.3d 717,
741-43 (3d Cir. 1994). An expert witness must have
specialized expertise or knowledge. See id. at 741.
Though we construe the specialized knowledge
requirement liberally, “at a minimum, a proffered
expert witness . . . must possess skill or knowledge
greater than the average layman . . .
Waldorf v.
Shuta, 142 F.3d 601, 625 (3d Cir. 1998). District courts
perform a screening function, typically called a Daubert
hearing, to ensure that evidence presented is, among
other things, reliable. See Daubert v. Merrell Dow
Pharm., Inc., 509 U.S. 579, 597 (1993). It is so if “based
on the ‘methods and procedures of science’ rather than
on ‘subjective belief or unsupported speculation . . .
Paoli, 35 F.3d at 742 (citation omitted). Rule 703
permits experts to rely on hearsay so long as it is of the
kind normally employed by experts in the field. See In
re TMI Litig., 193 F.3d 613, 697 (3d Cir. 1999).
However, the trial judge must conduct an independent
evaluation of the reasonableness of relying on the type
of data underlying the opinion. See Paoli, 35 F.3d at
748.

App. 14
Binney stated in his affidavit that he “was the
primary designer and developer of a number of
programs designed to acquire and analyze very large
amounts” of information from the “Internet” before
leaving the NSA in 2001. Pl.’s App. 228-29. He
continues to serve as a consultant to foreign
governments on intelligence collection and has testified
before foreign government agencies. Id. at 240.
According to Binney, after the September 11 attacks
the NSA’s surveillance program changed to allow
indiscriminate bulk data collection, and the President’s
Surveillance Program thereafter involved the
“collection of the full content of domestic e-mail traffic.”
Id. at 230. Binney based his conclusions on “the highlydetailed information contained in the documents
leaked by [Snowden].” Id. at 231. Binney stated that
“[t]he documents provided by Mr. Snowden are the type
of data that experts in the intelligence community
would typically and reasonably rely upon . . . .” Id. at
232. Wiebe submitted a two-page affidavit agreeing
with Binney’s assessment based on his review of the
same documents. Id. at 249-54.
The District Court concluded that Binney and
Wiebe were not qualified to testify as experts. Neither
identified or described the field of “scientific, technical,
or other specialized knowledge” in which he is
purportedly an expert. Gov’t Add. B 9. Wiebe did not
discuss the exhibits at all in his affidavit, and Binney
did not explain how the exhibits led him to reach his
conclusions. Id. at 9-10. The Court therefore could not
determine whether their conclusions were based on
reliable principles and methods. It also discounted
Schuchardt’s argument that the affidavits were

App. 15
admissible under Rule 703 based on Binney’s assertion
that the Snowden documents are the “type of data that
experts in the intelligence community would typically
and reasonably rely upon.” Id. at 10 n.7.6 That
assertion provided no basis for the Court to conduct an
independent evaluation into reasonableness. Id.
Moreover, Schuchardt did not request a Daubert
hearing or submit evidence regarding Binney and
Wiebe’s field of expertise or their methodologies.
Accordingly, the Court did not abuse its discretion in
barring their testimony as experts.
4. The Government’s Evidence
Contrast Schuchardt’s lack of competent evidence
against the admissible submissions by the
Government. These included a sworn declaration from
Wayne Murphy, the Director of Operations at the NSA,
who was “responsible for . .. managing the integration
and use of the NSA’s global foreign intelligence
authorities” and had “personal knowledge” of the
matters alleged in Schuchardt’s complaint. Pl.’s App.
173. He stated that “[n]either PRISM nor any other
NSA intelligence-gathering activity involves the bulk
collection (or storage) of all or substantially all of the email (or other Internet-based communications) of all
U.S. persons.” Id. The District Court credited those
statements and reasoned that Schuchardt could not
show that his communications would have been

6 The District Court also separately ruled, and we affirm, that
Binney and Wiebe could not testify as fact witnesses because they
did not claim any personal knowledge of the NSA’s current
collection programs. Gov’t’s Add. A 29-31.

App. 16
targeted and collected. Gov’t Add. A 22. The
Government also cited other authorities, such as the
Report on the Surveillance Program Operated
Pursuant to Section 702 of the Foreign Intelligence
Surveillance Act issued in July 2014 by the Privacy and
Civil Liberties Oversight Board, as well as case law
from other Circuits, acknowledging the targeted nature
of PRISM, see, e.g., United States v. Mohamud, 843
F.3d 420, 440 (9th Cir. 2016).
& ie "k "k *

Because the District Court did not abuse its
discretion in concluding that Schuchardt’s evidence
was inadmissible and that the Government’s evidence
stood uncontroverted, we affirm its ruling that
Schuchardt lacked factual standing for his suit.

App. 17
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1366
[Filed March 2, 2020]
ELLIOTT J. SCHUCHARDT,
individually and doing business
as the Schuchardt Law Firm,
on behalf of himself and all
others similarly situated,
Appellant
v.

)
)
)
)
)
)
)
)
)
)
)

PRESIDENT OF THE UNITED
STATES OF AMERICA; DIRECTOR )
OF NATIONAL INTELLIGENCE;
)
DIRECTOR OF THE NATIONAL
)
SECURITY AGENCY AND CHIEF
)
OF THE CENTRAL SECURITY
)
SERVICE; DIRECTOR OF THE
)
FEDERAL BUREAU OF
)
INVESTIGATION
)

Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2-14-cv-00705)
District Judge: Honorable Cathy Bissoon

App. 18
Argued September 23, 2019
Before: McKEE, AMBRO, and ROTH, Circuit Judges
JUDGMENT
This cause came on to be heard on the record before
the United States District Court for the Western
District of Pennsylvania and was argued on September
23, 2019.
On consideration whereof, IT IS ORDERED AND
ADJUDGED by this Court that the judgment of the
District Court entered February 4, 2019, is hereby
affirmed. Costs taxed against Appellant. All of the
above in accordance with the opinion of this Court.
ATTEST:
Dated: March 2, 2020

s/ Patricia S. Dodszuweit
Clerk

App. 19

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
Civil Action No. 14-705
Judge Cathy Bissoon
[Filed February 4, 2019]
ELLIOTT SCHUCHARDT,

)
)

Plaintiff,
v.

)
)
)

DONALD J. TRUMP, et al, )
)

Defendants. )
ORDER
Defendants’ renewed Motion to Dismiss (Doc. 57) for
lack of standing will be granted. The parties are wellacquainted with the underlying facts and arguments in
this case; including the Court of Appeals for the Third
Circuit’s Opinion and instructions on remand. The only
issue is: has Plaintiff plausibly shown, under the
factual-challenge-to-standing paradigm (as opposed to
facial), that the government captured his information
through dragnet-type data collection.

App. 20
The Circuit Court specifically held that Plaintiffs
“alleged facts - even if proven — do not conclusively
establish that PRISM operates as a dragnet on the
scale he has alleged.” Doc. 38 at 31. The Court
acknowledged that the “[s]everal commentators and...
few courts” to “have examined PRISM appear to agree
with the Government’s view of the program’s ‘targeted’
nature.” Id. at 32-33. It envisioned the government
renewing its standing-challenge, this time factually as
opposed to facially; and it raised the prospect of
jurisdictional discovery, and the relevantconsiderations attendant thereto.
Rather than engage in jurisdictional discovery, the
parties agreed that the government would make an
informal informational-disclosure; and Plaintiff
contemplated that he might be thus-satisfied,
rendering additional litigation unnecessary.
Ultimately, however, Plaintiff remained unconvinced,
and Defendants have renewed their Motion to Dismiss.
Nowhere in opposition does Plaintiff complain that
he was denied a fair opportunity to marshal evidence
to contradict the government’s record. Rather, he has
enlisted the efforts of two purported “experts,” Messrs.
Binney and Wiebe (who are no strangers to this
litigation). These individuals have not worked for the
NSA since 2001, and their affidavits rely on the same
categories of materials that already were before the
District and Circuit Courts the first time around.
A current evaluation of Plaintiff s claims is heavilyinfluenced by the context and legal framework now
applicable. Given that the standing-inquiry has shifted
from a facial challenge to a factual one, Plaintiff carries

App. 21
the burden, and the standard is a preponderance-ofthe-evidence. ACE Amer. Ins. Co. v. Guerriero. 738
Fed. Appx. 72, 76 (3d Cir. June 20, 2018); accord
GBForefront, L.P. v. Forefront Mgmt. Grp., LLC. 888
F.3d 29, 35 (3d Cir. 2018) (cited and relied upon in ACE
American).
Defendants have shown, by a preponderance of the
evidence, that the government did not engage in
dragnet-type collection activity - as discussed by the
Circuit Court - thereby establishing a plausible claim
that Plaintiffs data was captured. In support of this
conclusion, the Court incorporates by reference, as if
fully restated, the evidence and arguments recited in
Defendants’ opening and reply briefs (Docs. 58 & 73).
The court need not delve into the niceties of the
various individual evidentiary-challenges raised by
Defendants, as relates to Plaintiffs materials. Even
permitting all of Plaintiff s evidence - which, by the
time of his current briefing, is restricted to the recent
affidavits of Messrs. Binney and Wiebe1 - Defendant’s
positions carry the day under the preponderance-of-the
evidence standard (a conclusion that should not be
entirely surprising, given the language of the Circuit
Court’s Opinion).
This Court sees little benefit to rehashing the
arguments and factual recitations in Defendants’
briefing, which are meticulous and already have been

1 See Pl.’s Opp’n Br. (Doc. 68) at 10-11 (declining to resist
Defendants’ arguments regarding the non-competence of evidence
“previously filed in this case,” because Plaintiff now is relying on
his “two new affidavits”) (emphasis in original).

App. 22
incorporated by reference. The Court does offer,
though, these additional overarching observations.
Plaintiffs new affidavits, in large part, rely on the
same underlying evidence already before this Court
and the Circuit. What new documents are referenced even assuming their authenticity and admissibility do not tip the scales under the preponderance of the
evidence standard. See Defs.’ Reply (Doc. 73) at 3-4
(explaining why the new documents still do not
demonstrate dragnet-collection, as alleged by Plaintiff).
More generally, the notion that Plaintiff can take
largely the same evidence; filter it through the
mouthpiece of purported experts (with modest
embellishment); and hope to satisfy his burdens under
the presently-applicable standards; seems rather weak
tea, given the Circuit Court’s discussions.
While this Court questions-not Plaintiff s sincerity
and passion, his post-remand efforts, candidly, are
somewhat underwhelming. Perhaps the limitations say
less of Plaintiff s efforts than an inconvenient-reality —
in light of the record now before the Court, PRISM has
not been shown to be the dragnet-type collection
mechanism suggested. There really is not much more
to be said.
The
Court appreciates the candor and
reasonableness with which Plaintiff has approached
the remand. See discussion supra (noting Plaintiffs
willingness to keep an open mind regarding continuedpursuit of this litigation, depending on what the
government ultimately presented). Hopefully, he can
close this chapter feeling that his civic-duty has been
met, to the fullest of his abilities; and that his overall

App. 23
objectives have been achieved. Cf. Defs.’ Br. (Doc. 58) at
10 (by the time of remand, Plaintiffs claims regarding
the bulk collection of telephone metadata were mooted
by the passage of the USA FREEDOM Act; he had no
claim for money damages; and all that remained was
his claim for injunctive relief based on the
government’s alleged bulk collections under PRISM).2
For all of the reasons stated herein, Defendants’
renewed Motion to Dismiss (Doc. 57) is GRANTED,
and a judgment order under Rule 58 will issue
contemporaneously herewith.
IT IS SO ORDERED.
February 4, 2019

s/Cathv Bissoon__________
Cathy Bissoon
United States District Judge

cc (via ECF email notification):
All Counsel of Record

2 This Court takes comfort in knowing that the legislature has
imposed measures of accountability, as relates to the programs-inquestion, including PRISM. See id. at 15-16 (discussing the Privacy
and Civil Liberties Oversight Board’s Report, which supports the
government’s evidence that PRISM achieves targeted, not dragnettype, data collection).

App. 24
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
Civil Action No. 14-705
Judge Cathy Bissoon
[Filed February 4, 2019]
ELLIOTT SCHUCHARDT, )
)

Plaintiff,
v.

)
)
)

DONALD J. TRUMP, et al, )
)

Defendants. )
)

JUDGMENT ORDER
FINAL JUDGMENT hereby is entered pursuant to
Rule 58 of the Federal Rules of Civil Procedure. This
case has been marked closed.
IT IS SO ORDERED.
February 4, 2019

s/Cathv Bissoon___________
Cathy Bissoon
United States District Judge

cc (via ECF email notification):
All Counsel of Record

App. 25

APPENDIX C
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 15-3491
[Filed October 5, 2016]
ELLIOTT J. SCHUCHARDT,
individually and doing business
as the Schuchardt Law Firm,
on behalf of himself and all
others similarly situated,
Appellant
v.
PRESIDENT OF THE UNITED
STATES; DIRECTOR OF
NATIONAL INTELLIGENCE;
DIRECTOR OF THE NATIONAL
SECURITY AGENCY AND CHIEF
OF THE CENTRAL SECURITY
SERVICE; DIRECTOR OF THE
FEDERAL BUREAU OF
INVESTIGATION

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 26

Appeal from the United States District Court
for the Western District of Pennsylvania
(W.D. Pa. No. 2-14-cv-00705)
District Judge: Honorable Cathy Bissoon
Argued: May 17, 2016
Before: ’SMITH, Chief Judge, HARDIMAN, and
NYGAARD, Circuit Judges.
(Filed: October 5, 2016)
Elliot J. Schuchardt [Argued]
309 Braeburn Drive
Winchester, VA 22601
Counsel for Appellant
Andrew G. Crocker, Esq.
Electronic Frontier Foundation
815 Eddy Street
San Francisco, CA 94109
Counsel for Amicus Appellant
Benjamin C. Mizer
David J. Hickton
H. Thomas Byron III
Henry C. Whitaker [Argued]
United States Department of Justice
Appellate Section, Room 7256
950 Pennsylvania Avenue, N.W.

* Honorable D. Brooks Smith, United States Circuit Judge for the
Third Circuit, assumed Chief Judge status on October 1, 2016

App. 27
Washington, DC 20530
Counsel for Appellee

OPINION
HARDIMAN, Circuit Judge.
This appeal involves a constitutional challenge to an
electronic surveillance program operated by the
National Security Agency (NSA) under the authority of
Section 702 of the Foreign Intelligence Surveillance Act
(FISA). Elliott Schuchardt appeals an order of the
United States District Court for the Western District of
Pennsylvania dismissing his civil action for lack of
jurisdiction. The District Court held that Schuchardt
lacked standing to sue because he failed to plead facts
from which one might reasonably infer that his own
communications had been seized by the federal
government. Because we hold that, at least as a facial
matter, Schuchardt’s second amended complaint
plausibly stated an injury in fact personal to him, we
. will vacate the District Court’s order and remand.
I
Schuchardt’s appeal is the latest in a line of cases
raising the question of a plaintiffs standing to
challenge surveillance authorized by Section 702.
Congress amended FISA in 2008 to “supplement!] pre­
existing FISA authority by creating a new framework
under which the Government may . . . targetf] the
communications of non-U.S. persons located abroad.”
Clapper v. Amnesty International USA, 133 S. Ct. 1138,

App. 28
1144 (2013); see also FISA Amendments Act of 2008,
Pub. L. No. 110-261, 122 Stat. 2436, 2438, 50 U.S.C.
§ 1881a. On the day Section 702 became law, its
constitutionality was challenged by “attorneys and
human rights, labor, legal, and media organizations
whose work allegedly require [d] them to engage in . . .
telephone and e-mail communications” with persons
located outside the United States. See id. at 1145. The
Clapper plaintiffs claimed that Section 702 was facially
unconstitutional under the Fourth Amendment, which
prohibits unreasonable searches and seizures. See id.
at 1146.
A
The dispositive question presented to the Supreme
Court in Clapper was whether the plaintiffs had
established an “imminent” injury “fairly traceable” to
the government’s conduct under Section 702. See 133 S.
Ct. at 1147. Because the plaintiffs had brought suit on
the day the law was enacted, there was no evidence
that their communications had been intercepted—there
was only a looming “threat of [future] surveillance.” Id.
at 1145-46. Nonetheless, the plaintiffs claimed they
had standing because there was an “objectively
reasonable likelihood” that their communications
would be intercepted based on the nature of their
contacts with persons outside of the country. Id at
1146.
The Supreme Court rejected this argument as
“inconsistent” with longstanding precedent requiring
that “threatened injury must be certainly impending to
constitute injury in fact,” Clapper, 133 S. Ct. at 1147
(emphasis in original) (quoting Whitmore v. Arkansas,

App. 29
495 U.S 149, 158 (1990)). And because the plaintiffs
could rely only on a “speculative chain of possibilities”
to support their allegations of future harm from
unlawful government surveillance, they failed to
demonstrate an injury that was “certainly impending.”
Id. at 1150.
In particular, the Court characterized the Clapper
plaintiffs’ “speculative chain” as entailing five
inferential leaps:
(1) the Government will decide to target the
communications of non-U. S. persons with whom
[the plaintiffs] communicate;
(2) in doing so, the Government will choose to
invoke its authority under [Section 702] rather
than . . . another method of surveillance;
(3) the Article III judges who serve on the
Foreign Intelligence Surveillance Court will
conclude that the Government’s proposed
surveillance procedures . . . satisfy [Section
702’s] many safeguards and are consistent with
the Fourth Amendment;
(4) the Government will succeed in intercepting
the communications of [the plaintiffs’] contacts;
and
(5) [the plaintiffs] will be parties to the
particular communications that the Government
intercepts.
133 S. Ct. at 1148.

App. 30
On summary judgment, the plaintiffs had failed to
“set forth by affidavit or other evidence specific facts”
supporting these inferences. Id. at 1149 (internal
quotation marks omitted). Accordingly, they lacked
standing to challenge the constitutionality of Section
702. Id.
B
Soon after Clapper was decided, former NSA
contractor Edward Snowden leaked a trove of classified
documents to journalists writing for the Washington
Post and Guardian.1 Those documents referenced the
existence of an NSA program engaged in the bulk
collection of domestic telephone metadata, i.e., “details
about telephone calls, including for example, the length
of a call, the phone number from which the call was
made, and the phone number called,” but not the voice
content of the call itself. ACLU v. Clapper, 785 F.3d
787, 793 (2d Cir. 2015); see also Smith v. Obama, 816
F.3d 1239, 1241 (9th Cir. 2016); Obama v. Klayman,
800 F.3d 559, 561 (D.C. Cir. 2015). The operational
parameters of the program were summarized in a
classified order of the Foreign Intelligence Surveillance
Court (FISC) directed at Verizon Business Network
Services. ACLU, 785 F.3d at 795. In short, based on
Section 215 of the USA PATRIOT Act, Pub. L. No.
107-56, 115 Stat. 272, 287 (2001) (codified as amended
at 50 U.S.C. § 1861 et seq.), Verizon was producing to
1 See, e.g., Ellen Nakashima, Verizon Providing All Call Records to
U.S. Under Court Order, Wash. Post (June 6, 2013),
https://perma.cc/LZK7-37CJ; see also Glenn Greenwald, NSA
Collecting Phone Records of Millions of Verizon Customers Daily,
Guardian (June 6, 2013), https://perma.cc/UR2A-492H.

App. 31
the government, “all call detail records or ‘telephony
metadata’ ... on all telephone calls made through its
systems or using its services where one or both ends of
the call are located in the United States.” ACLU, 785
F.3d at 795.
The government’s bulk collection of telephone
metadata precipitated a number of lawsuits. In one
case, the Second Circuit held that the government had
exceeded its statutory authority under Section 215 to
obtain “relevant” information by constructing an “allencompassing” database of “every telephone call made
or received in the United States.” ACLU, 785 F.3d at
812—13. Under the statute’s sunset provision, however,
authorization for the bulk telephone metadata
collection program expired on June 1, 2015. See Pub. L.
No. 112-14, 125 Stat. 216 (2011) (authorizing an
extension); Smith, 816 F.3d at 1241. And although the
program was subsequently reauthorized by the USA
FREEDOM Act, Pub. L. No. 114-23, 129 Stat. 268
(2015), that act “prohibits any further bulk collection.”
Smith, 816 F.3d at 1241. In reliance on that
prohibition, the Ninth Circuit has determined that
“claims related to the ongoing collection of metadata
[under Section 215] are [now] moot.” Id.
Separate and apart from the bulk collection of
telephone metadata under Section 215, the documents
leaked to the Washington Post and Guardian also shed
light on a previously undisclosed electronic surveillance
program operating under Section 702 called PRISM.2

2 See, e.g., Barton Gellman & Laura Poitras, U.S. British
Intelligence Mining Data from Nine U.S. Internet Companies in

App. 32
Slides from a presentation purportedly authored by the
NSA described PRISM as “collectfing] directly from the
servers” the full content of user communications
exchanged using services provided by several large U.S.
companies—including Microsoft, Google, Yahoo, Apple,
and Facebook. App. 53. Another slide depicted a
timeline showing the inception of PRISM collection
from each company, beginning with Microsoft in
September 2007 and ending with Apple in October
2012. Yet another slide suggested a slogan for the
NSA’s “New Collection Posture”: “Sniff it All, Know it
All, Collect it All, Process it All, Exploit it All, and
Partner it All.” App. 61.
II
On June 2, 2014, Schuchardt filed a complaint in
the District Court asserting constitutional, statutory,
and state law claims against the President, the
Director of National Intelligence, and the Directors of
the NSA and Federal Bureau of Investigation. He
alleged that the Government was violating the Fourth
Amendment by storing his confidential
communications “in a computer database, or through a
government program, which the Defendants call
‘Prism.’” Civil Complaint ][ 22, Schuchardt v. Obama,
No. 2-14-cv-00705-CB (W.D. Pa. June 2, 2014), ECF
No. 1. He sought to enjoin “the [Government] from

Broad Secret Program, Wash. Post (June 7, 2013),
https://perma.cc/YJU2-U9TZ; Glenn Greenwald & Ewan
MacAskill, NSA Prism Program Taps in to User Data, of Apple,
Google and Others, Guardian (June 7, 2013),
https://perma.cc/RPA9-RXSY

App. 33
engaging in any further collection of . . . [his]
information.” ic7 f 37.
Schuchardt responded to the Government’s
successive motions to dismiss by amending his
complaint twice. In addition to refining and expanding
his allegations, Schuchardt supplemented his
averments with exhibits, the contents of which fall into
two general categories. First, he supported his
allegations regarding PRISM with excerpts of the
classified materials that were the focus of the
Washington Post and Guardian reports, as well as
several of the reports themselves. Second, he included
affidavits filed in support of the plaintiffs in Jewel v.
NSA (Jewel I), 965 F. Supp. 2d 1090 (N.D. Cal. 2013),
a case challenging the NSA’s interception of internet
traffic flowing through a telecommunications facility in
San Francisco pursuant to an Executive Order issued
shortly after September 11, 2001. Id. at 1098. Jewel I
was decided on remand from Jewel v. NSA, 673 F.3d
902 (9th Cir. 2011), in which the Ninth Circuit held
that the plaintiffs had adequately pleaded Article III
standing to sue. See 673 F.3d at 913. The affidavits in
Jewel I were filed by former NSA employees who
asserted that the agency had, since September 11,
developed an expansive view of its own surveillance
authority and the technology to back it up. See, e.g.,
App. 126 (“The post-September 11 approach was that
NSA could circumvent federal statutes and the
Constitution as long as there was some visceral
connection to looking for terrorists. . . . [The NSA] has,
or is in the process of obtaining, the capability to seize

App. 34
and store most electronic communications passing
through its U.S. intercept centers.”).3
Based on the record he had compiled, Schuchardt’s
second amended complaint alleged that because the
Government was “intercepting, monitoring and storing
the content of all or substantially all of the e-mail sent
by American citizens,” his own online communications
had been seized in the dragnet. App. 82, 95-99
(emphasis added). In particular, Schuchardt asserted
that he was “a consumer of various types of electronic
communication, storage, and internet services,”
including “the e-mail services provided by Google and
Yahoo; the internet search services of Google; the cloud
storage services provided by Google and Dropbox; [and]
the e-mail and instant message services provided by
Facebook.” App. 95-96. Then, relying on the
3 Schuchardt’s second amended complaint also asserted: a Fourth
Amendment claim challenging the bulk collection of telephone
metadata under Section 215, App. 99 (Count II); a Pennsylvania
state-law claim, App. 100 (Count III), and a First Amendment
claim, App. 101 (Count IV), challenging both PRISM and the
telephone metadata program; and statutory claims under FISA
seeking injunctive relief, App. 103 (Count V), and damages, App.
104 (Count VI). At oral argument, Schuchardt belatedly conceded
that his claims regarding the bulk collection of telephone metadata
were mooted by the USA FREEDOM Act. See Transcript of Oral
Argument at 5, Schuchardt v. Obama, No. 15-3491 (3d Cir. May
17, 2016). He also agreed that his claim for monetary damages
under FISA was barred by the doctrine of sovereign immunity, and
that he was no longer pursuing his claims under the First
Amendment. Id. at 10-11. In light of Schuchardt’s concessions, we
do not address these issues, and focus solely on whether he has
standing to litigate his Fourth Amendment claim for injunctive
relief based on the Government’s alleged bulk collection of online
communications under PRISM, App. 95 (Count I).

App. 35
operational details of PRISM made public by the
Washington Post and Guardian, he alleged that: (1) the
Government “had obtained direct access to the servers”
of the companies providing him with these services;
(2) the Government was “unlawfully intercepting,
accessing, monitoring and/or storing [his] private
communications . . . made or stored through such
services”; and (3) the Government was “collecting such
information in order to ‘data mine’ the nation’s e-mail
database.” App. 84, 95-97.
In its motion to dismiss Schuchardt’s second
amended complaint, the Government principally took
issue with his allegation that the “NSA collects the
online communications ... of all Americans, including,
therefore, his.” See Brief in Support of Defendants’
Motion to Dismiss Plaintiffs Second Amended
Complaint at 2, Schuchardt v. Obama, No. 2-14-cv00705-CB (W.D. Pa. Dec. 11, 2014), ECF No. 21
(emphasis added). Specifically, the Government argued
that because Section 702 authorizes the targeted
surveillance of only persons outside the United States,
it was implausible that PRISM—a program operating
under the authority of Section 702—was a dragnet
capturing all the country’s domestic online
communications. In support of its position, the
Government cited a report on PRISM prepared by the
Privacy and Civil Liberties Oversight Board (PCLOB),4

4 Privacy & Civil Liberties Oversight Board, Report on the
Surveillance Program Operated Pursuant to Section 702 of the
Foreign Intelligence Surveillance Act (July 2, 2014), available at
https://www.pclob.gov/library/702-Report.pdflliereinafterPCLOB
Report].

App. 36
an independent agency tasked with “review[ing]
actions the executive branch takes to protect the
Nation from terrorism, ensuring that the need for such
actions is balanced with the need to protect privacj' and
civil liberties.” 42 U.S.C. § 2000ee(c)(l). Based on its
review, the PCLOB determined that “[i]n PRISM
collection, the government... sends selectors—such as
an email address—to a United States-based electronic
communications service provider,” who is then by law
“compelled to give the communications sent to or from
that selector to the government.” PCLOB Report at 33.
Far from being the dragnet that Schuchardt had
alleged, therefore, “PRISM collection under Section 702
may be targeted only at non-U.S. persons located
abroad who possess or are likely to receive foreignintelligence information.” Brief in Support of
Defendants’ Motion to Dismiss at 10, Schuchardt u.
Obama, No. 2-14-cv-00705-CB (W.D. Pa. Aug. 11,
2014), ECF No. 8. Because none of Schuchardt’s
allegations suggested that he or his associates would be
targeted as such persons, the Government argued that
he had failed to include “well-pleaded allegations and
non-conclusory allegations of fact” necessary to
establish his standing. Brief in Support of Defendants’
Motion to Dismiss Plaintiffs Second Amended
Complaint at 4, Schuchardt v. Obama, No. 2-14-cv00705-CB (W.D. Pa. Dec. 11, 2014), ECF No. 21.
The District Court granted the Government’s
motion to dismiss Schuchardt’s second amended
complaint, but took a slightly different tack than what
the Government had suggested. After considering four
cases examining constitutional standing to sue in cases
challenging national security surveillance—Clapper,

App. 37
ACLU, Jewel, and Klayman—the Court deduced a
“meaningful distinction” that explained their divergent
outcomes. Schuchardt v. Obama, 2015 WL 5732117, at
*6 (W.D. Pa. Sept. 30, 2015). “In situations where
plaintiffs are able to allege with some degree of
particularity that their own communications were
specifically targeted—for example by citing a leaked
FISC order or relying on a detailed insider
account—courts have concluded that the particularity
requirement has been satisfied.” Id. “On the other
hand, courts have refused to find standing based on
naked averments that an individual’s communications
must have been seized because the government
operates a data collection program and the individual
utilized the service of a large telecommunications
company.” Id.
Applying the pleading standard it had gleaned from
Clapper, ACLU, Jewel, and Klayman, the District
Court began by noting that the facts underpinning
Schuchardt’s allegations were drawn almost entirely
from “media reports and publicly available
information.” Id. Accordingly, his lawsuit fell “squarely
within the second category” of cases, i.e., those brought
by plaintiffs who lacked Article III standing. Id.
Furthermore, Schuchardt “had identified no facts from
which the Court reasonably might infer that his own
communications have been targeted, seized, or stored.”
Id. As such, he was “indistinguishable from every other
American subscribing to the services of a major
telephone and/or internet service provider.” Id. His
“only discernible distinction [was] his heightened
personal-interest in the subject,” which was
“insufficient to confer standing.” Id. (citing Schlesinger

App. 38
v. Reservists Comm, to Stop the War, 418 U.S. 208, 220
(1974)).

Ill
The District Court had jurisdiction over
Schuchardt’s claims under 28 U.S.C. § 1331, as well as
the inherent power to ascertain its own jurisdiction.
See Arbaugh v. Y. & H. Corp., 546 U.S. 500, 514 (2006).
We have jurisdiction under 28 U.S.C. § 1291. See also
Bender v. Williamsport Area Sch. Dist., 475 U.S. 534,
541-42 (1986). We review de novo the District Court’s
order dismissing Schuchardt’s second amended
complaint. See Fleisher v. Standard Ins. Co., 679 F.3d
116, 120 (3d Cir. 2012).
At the outset, we note that there is an important
distinction between “facial” and “factual” attacks on
subject matter jurisdiction raised in a motion under
Rule 12(b)(1) of the Federal Rules of Civil Procedure.
See Mortensen v. First Fed. Sav. & Loan, 549 F.2d 884,
891 (3d Cir. 1977). In a facial attack, we review only
“the allegations of the complaint and documents
referenced therein and attached thereto, in the light
most favorable to the plaintiff.” Gould Elecs. v. United
States, 220 F.3d 169, 176 (3d Cir. 2000). If, however,
the defendant contests the pleaded jurisdictional facts,
“the court must permit the plaintiff to respond with
evidence supporting jurisdiction.” Id. at 177 (citing Int’l
Ass’n of Machinists & Aerospace Workers v. Nw.
Airlines, Inc., 673 F.2d 700, 711-12 (3d Cir. 1982)).
“The court may then determine jurisdiction by
weighing the evidence presented by the parties,” but “if
there is a dispute of a material fact, the court must

App. 39
conduct a plenary trial on the contested facts prior to
making a jurisdictional determination.” Id.
It is clear from the record in this case that the
District Court viewed the Government’s motion to
dismiss as a facial attack on its jurisdiction. The
Court’s analysis focused solely on Schuchardt’s second
amended complaint; it did not consider any extrinsic
facts proffered by the Government, including, for
example, the nature of PRISM collection as determined
by the PCLOB. See Schuchardt, 2015 WL 5732117, at
*5-7. Accordingly, our review of the District Court’s
order will accept as true all of Schuchardt’s plausible
allegations, and draw all reasonable inferences in his
favor.5
IV
We begin our analysis with first principles. As a
plaintiff seeking to invoke federal jurisdiction,
Schuchardt bears the burden of establishing each
element of his standing to sue under Article III. See
Lujan v. Defenders of Wildlife, 504 U.S. 555, 561
(1992). “[T]he irreducible constitutional minimum of
standing contains three elements.” Id. at 560.
First, the plaintiff must have suffered an injury
in fact—an invasion of a legally protected
5 Schuchardt has also challenged on appeal the District Court’s
order denying his request for a preliminary injunction, a decision
the Court rendered more than six months before granting the
Government’s motion to dismiss. Because Schuchardt failed to
identify that unrelated order in his notice of appeal, however, we
lack jurisdiction to consider his arguments. See Sulima v.
Tobyhanna Army Depot, 602 F.3d 177, 184 (3d Cir. 2010).

App. 40
interest which is (a) concrete and particularized,
and (b) actual or imminent, not conjectural or
hypothetical. Second, there must be a causal
connection between the injury and the conduct
complained of—the injury has to be fairly
traceable to the challenged action of the
defendant, and not the result of the independent
action of some third party not before the court.
Third, it must be likely, as opposed to merely
speculative, that the injury will be redressed by
a favorable decision.
Id. at 560-61 (internal quotation marks, citations, and
alterations omitted).
Because a motion to dismiss raising a facial attack
on subject matter jurisdiction relies solely on the
pleadings, “we apply the same standard of review we
use when assessing a motion to dismiss for failure to
state a claim.” See Finkelman v. NFL, 810 F.3d 187,
194 (3d Cir. 2016). “Thus, to survive a motion to
dismiss for lack of standing, a plaintiff must allege
facts that affirmatively and plausibly suggest that [he]
has standing to sue.” Id. (internal quotation marks
omitted). That is, the plaintiff must “plausibly allege
facts establishing each constitutional requirement.”
Hassan v. City of New York, 804 F.3d 277, 289 (3d Cir.
2015); see also Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547 (2016). ‘
Against this doctrinal backdrop, Schuchardt’s
Article III standing turns on two inquiries. First, were
his allegations sufficiently “particularized” to
demonstrate that he suffered a discrete injury? See
Lujan, 504 U.S. at 560. Second, were those facts

App. 41
pleaded with enough detail to render them plausible,
“well-pleaded” allegations entitled to a presumption of
truth? See Ashcroft v. Iqbal, 556 U.S. 662, 681 (2009);
Bell Ail. Corp. v. Twombly, 550 U.S. 544, 554 (2007).
We address each inquiry in turn.
A
A “particularized” Article III injury is one that
“affect[s] the plaintiff in a personal and individual
way.” In re Schering Plough Corp. Intron /Temodar
Consumer Class Action, 678 F.3d 235, 245 (3d Cir.
2012) (quoting Lujan, 504 U.S. at 560 n.l). That
putative litigants must suffer in some discrete and
personal fashion ensures, first, that “the legal
questions presented . . . will be resolved, not in the
rarified atmosphere of a debating society, but in a
concrete factual context conducive to a realistic
appreciation of the consequences of judicial action,”
and, second, that our “exercise of judicial power” shows
“[pjroper regard for the .. . other two coequal branches
of the Federal Government.” Valley Forge Christian
Coll. v. Ams. United for the Separation of Church &
State, Inc., 454 U.S. 464, 471-74 (1982). These two
concerns—respect for the judicial role and separation
of powers—are most salient when courts are asked “to
review actions of the political branches in the fields of
intelligence gathering and foreign affairs.” Clapper, 133
S. Ct. at 1147.
The Supreme Court has identified a subset of cases
in which plaintiffs routinely fail to demonstrate
particularized injury because they present only
“generalized grievances,” i.e., injuries that are
“undifferentiated and ‘common to all members of the

App. 42
public.”’ Lujan, 504 U.S. at 573—74 (quoting United
States v. Richardson, 418 U.S. 166, 177 (1974)).
“Whether styled as a constitutional or prudential limit
on standing, the Court has sometimes determined that
where large numbers of Americans suffer alike, the
political process, rather than the judicial process, may
provide the more appropriate remedy.” Fed. Election
Comm’n v. Akins, 524 U.S. 11, 23 (1998). Such cases
often involve government action directed at the public
at large, or harms that by their nature touch upon
interests that are widely shared. See, e.g., Schlesinger,
418 U.S. at 217 (plaintiffs asserting violation of the
Incompatibility Clause by members of Congress also
serving in the armed reserves lacked standing because
their only interest was “to have the Judicial Branch
compel the Executive Branch to act in conformity with
the [law] ... an interest shared by all citizens”); Sierra
Club v. Morton, 405 U.S. 727, 734-36 (1972)
(association challenging development of national park
lacked standing based on alleged “special interest” in
conservation).
Nevertheless, “[t]he fact that an injury may be
suffered by a large number of people does not of itself
make that injury a nonjusticiable generalized
grievance.” Spokeo, 136 S. Ct. at 1548 n.7. “The victims’
injuries from a mass tort, for example, are widely
shared, to be sure, but each individual suffers a
particularized harm.” Id.] see also Massachusetts v.
ERA, 549 U.S. 497, 526 n.24 (2007) (“[Standing is not
to be denied simply because many people suffer the
same injury. ... To deny standing to persons who are
in fact injured simply because many others are also
injured, would mean that the most injurious and

App. 43
widespread Government actions could be questioned by .
nobody.”)- And although particularity and concreteness
are distinct elements constituting injury in fact, see
Spokeo, 136 S. Ct. at 1545, the Supreme Court has also
observed that the “judicial language” accompanying
generalized grievances “invariably appears in cases
where the harm is not only widely shared, but also of
an abstract or indefinite nature—for example, harm to
the ‘common concern for obedience to law.’” Akins, 524
U.S. at 23 (emphasis added).
We applied these principles in a recent case
involving allegations of government surveillance. In
Hassan v. City of New York, the plaintiffs claimed that
the New York City Police Department (NYPD) had
implemented a program “to monitor the lives of
Muslims, their businesses, houses of worship,
organizations, and schools.” 804 F.3d at 285. The
program allegedly entailed “widespread” photo and
video surveillance of “organizations and businesses ...
visibly or openly affiliated with Islam,” and the
infiltration of “Muslim-affiliated” groups with
.informants and undercover police officers. Id. at
285—86. The information gathered was compiled into a
series of reports “document[ing] . . . American Muslim
life in painstaking detail.” Id. (internal quotation
marks omitted). The Hassan plaintiffs discovered the
program after some of these reports became “widely
publicized,” and they asserted that the fallout required
them to alter their ordinary day-to-day conduct. See id.
at 287-88.
We held that the plaintiffs’ allegations in Hassan
were sufficient to demonstrate particularized injury

App. 44
under Article III. After determining that they had
asserted “an invasion of a legally protected
interest”—“[t]he indignity of being singled out [by the
government] for special burdens on the basis of one’s
religious calling”—we observed that the particularized
nature of an injury does not turn on the number of
persons that may claim it. Id. at 289. “[T]hat hundreds
or thousands (or even millions) of other persons may
have suffered the same injury does not change the
individualized nature of the asserted rights and
interests at stake.” Id. at 291 (citing Akins, 524 U.S. at
24). “Harm to all—even in the nuanced world of
standing law—cannot be logically equated with harm
to no one.” Id. And with regard to allegations of
widespread government surveillance, we stated that
because the plaintiffs had “claim[ed] to be the very
targets of the allegedly unconstitutional surveillance,
they [were] unquestionably ‘affectfed] ... in a personal
and individual way.’” Id. (quoting Lujan, 504 U.S. at
560 n.l).
Like the plaintiffs in Hassan, Schuchardt has
alleged a program of government surveillance that,
though universal in scope, is unmistakably personal in
the purported harm. His second amended complaint
describes PRISM as a dragnet that collects “all or
substantially all of the e-mail sent by American citizens
by means of several large internet service providers.”
App. 82. The collected information allegedly
encompasses Schuchardt’s personal communications,
and includes not only the kind of intensely private
details that one could reasonably expect to find in the
email accounts of most Americans—“bank account
numbers; credit card numbers; passwords for financial

App. 45
data; [and] health records”—but also data influenced
by Schuchardt’s personal circumstances, namely “trade
secrets” and “communications with clients of
Schuchardt’s law firm, which are privileged and
confidential under applicable law.” App. 96.
The Government strenuously disputes the
plausibility of Schuchardt’s assertion that PRISM
collects “all or substantially all of the e-mail sent by
American citizens,” and we address that dispute in
detail below. But putting aside for the moment the
question of whether Schuchardt’s allegations
concerning PRISM are entitled to a presumption of
truth, the consequences that he identifies as flowing
from the Government’s alleged dragnet are
undoubtedly personal to him insofar as he has a
constitutional right to maintain the privacy of his
personal communications, online or otherwise. See
Plumhoff v. Rickard, 134 S. Ct. 2012, 2022 (2014)
(“Fourth Amendment rights are personal rights . . .
which may not be vicariously asserted.” (quoting
Alderman u. United States, 394 U.S. 165, 174 (1969)).
That interest is neither indivisibly abstract nor
indefinite, see Warshak v. United States, 631 F.3d 266,
288 (6th Cir. 2010), and the fact that a large
percentage of the population may share a similar
interest “does not change [its] individualized nature”
because Schuchardt’s allegations make clear that he is
among the persons that are the “very targets of the
allegedly unconstitutional surveillance.” Hassan, 804
F.3d at 291; cf. Riley v. California, 134 S. Ct. 2473,
2484—85 (2014) (extending the warrant requirement to
searches of cellular phones, “which are now such a
pervasive and insistent part of daily life that the

App. 46
proverbial visitor from Mars might conclude they were
an important feature of human anatomy”).
B
Having determined that Schuchardt’s allegations
stated a particularized injury under Article III, we now
consider whether those allegations should be credited
as true for the purpose of resolving the Government’s
jurisdictional objection. As noted previously, the
District Court construed the Government’s motion to
dismiss as a facial attack on its subject matter
jurisdiction. As a result, we must accept Schuchardt’s
allegations as true, with the important caveat that the
presumption of truth attaches only to those allegations
for which there is sufficient “factual matter” to render
them “plausible on [their] face.” Iqbal, 556 U.S. at 679.
Conclusory assertions of fact and legal conclusions are
not entitled to the same presumption. See id.; see also
Twombly, 550 U.S. at 57; Connelly v. Lane Constr.
-Corp., 809 F.3d 780, 787 (3d Cir. 2016) (“Under the
pleading regime established by Twombly and Iqbal, a
court reviewing the sufficiency of a complaint must...
identify allegations that, ‘because they are no more
than conclusions, are not entitled to the assumption of
truth.’” (quoting Iqbal, 556 U.S. at 679)).6

6 We have instructed courts to follow a three-step process to
determine the sufficiency of a complaint in accordance with
Twombly and Iqbal. “First, [the court] must take note of the
elements the plaintiff must plead to state a claim. Second, it
should identify allegations that, because they are no more than
conclusions, are not entitled to the assumption of truth. Finally,
when there are well-pleaded factual allegations, the court should
assume their veracity and then determine whether they plausibly

App. 47
1
We have recognized that “[t]he plausibility
determination is a ‘context-specific task that requires
the reviewing court to draw on its judicial experience
and common sense.’” See, e.g., Connelly, 809 F.3d at
786-87 (quoting Iqbal, 556 U.S. at 675). At the same
time, we have cautioned that the plausibility standard
does not impose a heightened pleading requirement,
and that Federal Rule of Civil Procedure 8(a) continues
to require only a “showing” that the pleader is entitled
to relief. See, e.g., Phillips v. Cty. ofAllegheny, 515 F.3d
224, 233-34 (3d Cir. 2008) (“The [Supreme] Court
emphasized . . . that it was neither demanding a
heightened pleading of specifics nor imposing a
probability requirement.”)). Indeed, although Twombly
and Iqbal emphasized the plaintiffs burden of pleading
sufficient “factual matter,” the Supreme Court also
expressly “disavowed]” the requirement that a plaintiff
plead “specific facts.” Boykin v. KeyCorp, 521 F.3d 202,
215 (2d Cir. 2008) (quoting Twombly, 550 U.S. at 569,
and Erickson v. Pardus, 551 U.S. 89, 93 (2007)).
Implicit in the notion that a plaintiff need not plead
“specific facts” to survive a motion to dismiss is that
courts cannot inject evidentiary issues into the
plausibility determination.7 See Twombly, 550 U.S. at

give rise to an entitlement to relief.” Connelly, 809 F.3d at 787 &
n.4 (internal citations, quotations marks, and original
modifications omitted).
7 The “evidentiary issues” to which we refer are distinct from the
question of what documents may be considered in resolving a
motion to dismiss applying the standard of review under Rule

App. 48
556 (“[A] well-pleaded complaint may proceed even if it
strikes a savvy judge that actual proof of those facts is
improbable.”)- This includes the weighing of facts or the
requirement that a plaintiff plead “specific facts”
beyond those necessary to state a valid claim. See id. at
573 n.8 (“[W]hen a complaint adequately states a claim,
it may not be dismissed based on a district court’s
assessment that the plaintiff will fail to find
evidentiary support for his allegations or prove his
claim to the satisfaction of the factfinder.”). The same
logic precludes a court from rejecting pleaded facts
based on some blanket exclusion of evidence. See
Ricciuti u. New York City Transit Auth., 941 F.2d 119,
124 (2d Cir. 1991). “A contrary rule would confuse the
principles applicable to a motion to dismiss with those
governing a motion for summary judgment.”
Campanella v. Cty. of Monroe, 853 F. Supp. 2d 364, 378
(W.D.N.Y. 2012); see also Whitney v. Guys, Inc., 700
F.3d 1118, 1128-29 (8th Cir. 2012).
Accordingly, although it is unclear whether the
District Court applied a heightened pleading standard
12(b)(6), or, as relevant here, addressing a facial challenge to
subject matter jurisdiction under Rule 12(b)(1). The general rule
for determining the scope of the pleadings in this scenario is that
a district court “may consider only the allegations contained in the
pleading[s] to determine [their] sufficiency,” but is permitted to
consider “documents] integral to or explicitly relied upon in the
complaint,” and “any undisputedly authentic document that a
defendant attaches ... if the plaintiff s claims are based on the
document,” without converting the motion into one for summary
judgment. See In re Asbestos Prods. Liability Litig. (No. VI), 822
F.3d 125,133 & n.7 (3d Cir. 2016) (internal citations and quotation
marks omitted). See generally 5B Charles Alan Wright & Arthur
R. Miller, Federal Practice and Procedure § 1350 n.l (3d ed. 2016).

App. 49
in this case, to the extent that its opinion suggests that
Schuchardt’s reliance on “media reports and other
publicly-available information” was impermissible, we
disagree.8 See Schuchardt, 2015 WL 5732117, at *6.
Indeed, we held that the plaintiffs in Hassan had
plausibly pleaded both their standing to sue and claims
for relief based on NYPD surveillance reports that the
plaintiffs had discovered only after they had been
“widely publicized.” See 804 F.3d at 287. Similarly, we
take the District Court’s enumeration of the types of
evidence giving rise to the plaintiffs’ standing in Jewel
and ACLU—”a leaked FISC order or a detailed insider
account”—as merely a suggestion of facts that would
have strongly supported the plausibility of
Schuchardt’s allegations, rather than a requirement
that he plead those specific facts. See 2015 WL
6732117, at *6. Such limitations on the scope or source
of facts that a plaintiff may plead to reach the
threshold of plausibility run counter to the
longstanding principles animating pretrial dispositions,

8 Despite Clappers observation that the standing inquiry is
“especially rigorous” in matters touching on “intelligence gathering
and foreign affairs,” 133 S. Ct. at 1147, to our knowledge no court
has imposed a heightened pleading standard for cases implicating
national security. See Jewel, 673 F.3d at 913 (“Article III imposes
no heightened standing requirement for the often difficult cases
that involve constitutional claims against the executive involving
surveillance.”). In this appeal, we will assume without deciding
that a heightened pleading standard does not apply. See, e.g.,
Jones v. Bock, 549 U.S. 199,212-13 (2007) (explaining that “courts
should generally not depart from the usual practice under the
Federal Rules on the basis of perceived policy concerns,” including
the imposition of a pleading standard more stringent than the
“short and plain statement” of the claim under Rule 8).

App. 50
as set forth in Twombly and Iqbal, and come close to
the weighing of evidence and credibility determinations
that are the exclusive province of the factfinder. See
Iqbal, 556 U.S. at 681 (“It is the conclusory nature of
respondent’s allegations, rather than their
extravagantly fanciful nature, that disentitles them to
the presumption of truth.”); Twombly, 550 U.S. at 556
(“Rule 12(b)(6) does not countenance . . . dismissals
based on a judge’s disbelief of a complaint’s factual
allegations.” (quoting Neitzke v. Williams, 490 U.S.
319, 327 (1989)); see also Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 255 (1986).
The upshot of all this for Schuchardt is that his
reliance on news articles and other disclosures
concerning PRISM weighs neither in his favor nor
against him. Instead, these public reports (and the
leaked classified materials accompanying them) are
simply part and parcel of the “factual matter” that
must be considered in assessing the plausibility of his
allegations. We will therefore examine those reports in
conjunction with the rest of Schuchardt’s pleadings to
ascertain whether he plausibly alleged a particularized
injury under Article III.
2
Based on our review of the pleadings, the
plausibility of Schuchardt’s alleged injury—that the
Government has been “unlawfully intercepting,
accessing, monitoring and/or storing [his] private
communications,” App. 95—depends on the plausibility
of his assertion that PRISM functions as an
indiscriminate dragnet which captures “all or
substantially all of the e-mail sent by American

App. 51
citizens.” App. 82. Aside from this sweeping allegation,
Schuchardt has supplied no facts suggesting how (or
why) the Government would have been interested in
his online activity. His burden, therefore, was to allege
enough “factual matter” to make plausible the
Government’s virtual dragnet. Iqbal, 556 U.S. at 679;
see also Arpaio v. Obama, 797 F.3d 11, 19 (D.C. Cir.
2015).
Schuchardt pleaded facts drawn from news articles
published by the Guardian, as well as the leaked and
purportedly classified materials from which those
articles were derived. As we noted in Part I.B, supra,
these documents state that the NSA, through PRISM,
has obtained “direct” access to the technical facilities of
several major internet service providers. App. 53, 84.
They indicate specific dates for when those providers
granted the Government access, App. 60, and that the
degree of access those providers granted enables the
Government to query their facilities at will for “real­
time interception of an individual’s internet activity.”
App. 66. They also describe the types of activity that
may be accessed, encompassing “both the content and
metadata of. . . private e-mail communications” sent
by those providers on behalf of their subscribers. App.
59, 96. Finally, they claim that the rate of data
“ [collection is outpacing [the Government’s] ability to
ingest, process and store [the data] to the ‘norms’ to
which [it has] become accustomed,” App. 64, and that
the NSA’s overriding surveillance goal is to “[c]ollect it
[a] 11,” App. 61.
By including these factual averments in his second
amended complaint, Schuchardt outlined a coherent

App. 52
and plausible case supporting his PRISM-as-dragnet
allegations. First, his alleged facts specify, at least to
some degree, the means through which the NSA
captures “all or substantially all of the e-mail sent by
American citizens,” App. 82, namely, by compelling
companies that provide email and other internet
services to cooperate with the NSA in the collection of
their customers’ data. Although the technical details of
how each company’s email service integrates within
PRISM’s infrastructure are not specified, “on a motion
to dismiss, we ‘presum[e] that general allegations
embrace those specific facts that are necessary to
support the claim.’” Lujan, 504 U.S. at 561 (quoting
Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 781, 889 (1990)).
Moreover, according to the NSA itself, PRISM entails
data “collection directly from the servers” of these
companies, and Schuchardt describes events involving
Lavabit, a company that resisted the Government’s
demands to “install a device on its server which would
have provided the [Government] with access to the full
content of all e-mail messages for all of Lavabit’s . . .
customers.” See App. 53, 84, 87. Thus, the pleaded facts
plausibly allege the technical means through which
PRISM purportedly achieves a nationwide email
dragnet.9
9 We do not read the Ninth Circuit’s opinion in Jewel to suggest a
different conclusion. To be sure, the plaintiff in Jewel was able to
allege “with particularity” that her communications were seized by
“focus [ing]” her complaint on interceptions occurring at a specific
technical facility operated by a single telecommunications
provider. See 673 F.3d at 910 (discussing the plaintiffs allegations
concerning AT&T’s “SG3 Secure Room” and “particular electronic
communications equipment” at the company’s “Folsom Street”
facility in San Francisco). Although the details she alleged were

App. 53
Second, Schuchardt’s allegations are replete with
details confirming PRISM’s operational scope and
capabilities. The exhibits attached to his second
amended complaint include a slide from a purported
NSA presentation identifying company names and the
dates they began cooperating with the agency. Another
slide confirms that—consistent with a dragnet
capturing “all or substantially all of the e-mail sent by
American citizens”—the scale of the data collected by
PRISM is so vast that the Government reported
difficulty processing it according “to the ‘norms’ to
which [it has] become accustomed.” App. 64; see also
App. 52 (characterizing PRISM as the “SIGAD Used
Most in NSA Reporting”);10 App. 61 (indicating the
NSA’s “New Collection Posture” of “Collect[ing] it All”).
Finally, the pleaded facts support Schuchardt’s
allegation that the scope of PRISM’s data collection
encompasses his personal email. The NSA presentation
identifies specific companies participating in the

quite colorful, they differ in degree, not in kind from Schuchardt’s
averments. In both cases, the parties rehed on an insider account
of the alleged surveillance program at issue—Schuchardt on a
former NSA contractor, and Jewel on a former AT&T
telecommunications technician. Those insiders in turn have relied
either on documentary evidence allegedly produced by the
Government itself, or their personal experiences in executing the
surveillance program.
10 SIGAD stands for the term “Signals Intelligence Activity
Designator,” which “is an alphanumeric designator that identifies
a facility used for collecting Signals Intelligence (SIGINT).” Laura
K. Donohue, Section 702 and the Collection of International
Telephone and Internet Content, 38 Harv. J. L. & Pub. Pol’y 117,
119 n.3 (2015).

App. 54
PRISM program, and indicates that NSA analysts
receive the content of emails collected as part of the
program. Schuchardt alleged that he uses email
services provided by two of those companies—Google
and Yahoo—so we need not speculate about whether
Schuchardt’s own communications were captured
because he specified the scope of PRISM’s dragnet with
enough “factual matter” to make additional inferential
leaps unnecessary. See Klayman, 800 F.3d at 559
(opinion of Brown, J.) (permitting the inference that
the bulk telephone metadata program under Section
215 encompassed the plaintiffs communications in
light of facts alleging “the government’s efforts to
‘create a comprehensive metadata database.’”).
3
The Government raises three principal arguments
challenging the plausibility of Schuchardt’s PRISM
allegations. First, it argues that Clapper and its
application by the D.C. Circuit in Klayman require us
to find his allegations implausible. We disagree.
Two aspects of Clapper distinguish it from this case.
First, because the Clapper plaintiffs raised a facial
constitutional challenge to Section 702 on the day the
statute was enacted, they pleaded only prospective
injury, i.e., “potential future surveillance.” See 133 S.
Ct. at 1150. And because that “potential” relied on a
“speculative chain of possibilities,” the Supreme Court
concluded that they had failed to satisfy the imminence
and traceability elements of injury-in-fact under Article
III. Here, in contrast, Schuchardt’s alleged injury has
already occurred insofar as he claims the NSA seized
his emails. It is therefore not surprising that the

App. 55
Government has been unable to formulate an
analogous “speculative chain” that would doom
Schuchardt’s constitutional standing.
Another critical distinction between this case and
Clapper is that the district court entered summary
judgment, a procedural posture that required the
plaintiffs to identify a triable issue of material fact
supported by an evidentiary record. See id. at 1146,
1149. In contrast, Schuchardt sought to avoid dismissal
in a facial jurisdictional challenge raised under Rule
12(b)(1), which requires him only to state a plausible
claim, a significantly lighter burden. This distinction in
the standard of review is also reflected in cases
concerning national security surveillance from our
sister courts. Compare ACLU, 785 F.3d at 800
(plaintiffs had standing on motion to dismiss); Jewel,
673 F.3d at 906—07 (same), with Klayman, 800 F.3d at
568 (opinion of Williams, J.) (plaintiffs lacked standing
to pursue preliminary injunction because there was no
“substantial likelihood” that they could establish
injury-in-fact, observing that summary judgment
imposes a “lighter burden” than the “substantial
likelihood of success” necessary to obtain a preliminary
injunction); ACLU v. NSA, 493 F.3d 644, 650-51,
667-70 (6th Cir. 2007) (plaintiffs failed to establish
injury-in-fact on summary judgment because they had
“no evidence” on various points of causation). Here,
Schuchardt has gone beyond mere allegations to
survive a motion to dismiss by creating a limited
evidentiary record to support his allegations.
The Government’s reliance on Klayman is also
misplaced. There, the D.C. Circuit vacated the district

App. 56
court’s preliminary injunction, holding that the
plaintiffs had failed to demonstrate a substantial
likelihood of success on the merits. See 800 F.3d at 561.
However, the panel split on the issue of the plaintiffs’
standing, and also disagreed on whether to remand the
case for further proceedings or outright dismissal. See
id. at 564 (opinion of Brown, J.) (plaintiffs had satisfied
“the bare requirements of standing,” remanding for
jurisdictional discovery); id. at 565 (opinion of
Williams, J.) (plaintiffs lacked standing to seek
preliminary injunction, remanding for jurisdictional
discovery); id. at 569 (opinion of Sentelle, J.) (plaintiffs
lacked standing vel non, remanding with order to
dismiss). Under these circumstances, it seems clear to
us that Klayman’s persuasive force is minimized by its
splintered reasoning, different procedural posture, and
the fact that the D.C. Circuit addressed itself to a nowdefunct surveillance program authorized by a separate
provision of FISA. Accordingly, neither Clapper nor
Klayman supports the Government in this case.
Second, the Government contends that Schuchardt’s
allegations “say at most that the government may have
the capability to seize and store most electronic
communications,” but “[t]hey do not say that the
government is searching or seizing most, let alone all,
e-mail.” Gov’t Br. 21. We agree that Schuchardt’s
alleged facts—even if proven—do not conclusively
establish that PRISM operates as a dragnet on the
scale he has alleged. The language of the leaked
materials Schuchardt relies on is imprecise. The use of
the term “direct” in the NSA’s presentation could mean,
for example, that the Government has complete
discretion to search all electronic information held by

App. 57
a company participating in PRISM at will; this would
certainly be consistent with the “real-time” interception
capability that the NSA allegedly possesses, and could
qualify as an unconstitutional “seizure” of all
information stored on the company’s servers. On the
other hand, “direct” could mean that the Government
merely has the legal authority to compel participating
companies to turn over “communications that may be
of foreign-intelligence value because they are . . .
associated with the e-mail addresses that are used by
suspected foreign terrorists.” Gov’t Br. 22. In that
scenario, it is implausible that Schuchardt’s
communications would be targeted by PRISM.
At this early stage of litigation, however,
Schuchardt is entitled to any inference in his favor that
maybe “reasonably” drawn from his pleaded facts. See,
e.g., King Drug Co. of Florence, Inc. v. SmithKline
Beecham Corp., 791 F.3d 388, 398 n.ll (3d Cir. 2015)
(citing Iqbal, 556 U.S. at 678-79). And as we have
explained, the inference that PRISM “collects all or
substantially all of the e-mail sent by American
citizens,” App. 82, is one supported by his pleaded
“factual matter.” Accordingly, in this procedural
posture, we cannot accept the Government’s preferred
inference.
Finally, the Government disputes the notion that
PRISM is a dragnet, i.e., that it is “based on the
indiscriminate collection of information in bulk.” See
Gov’t Br. 22 (quoting PCLOB Report at 111). According
to the Government, “the program consists entirely of
targeting specific persons that may be of foreignintelligence value because they are, for example,

App. 58
associated with the e-mail addresses that are used by
suspected foreign terrorists.” Id. Under this view, to
intercept communications using PRISM:
Analysts first identify a non-U.S. person located
outside the United States who is likely to
communicate certain types of foreign
intelligence information, such as an individual
who belongs to a foreign terrorist organization or
facilitates its activities. Analysts also attempt to
identify a means by which this foreign target
communicates, such as an e-mail address, or a
telephone number; any such address, number, or
other identifier is known as a “selector.” PRISM
collection occurs when the government obtains
from telecommunications providers
communications sent to or from specified
selectors.
Gov’t Br. 6-7 (internal citations omitted).

App. 59
Several commentators11 and the few courts12 that
have examined PRISM appear to agree with the
Government’s view of the program’s “targeted” nature.
So too has the PCLOB, whose report on PRISM the
11 See, e.g., Donohue, supra note 8, at 119 n.2 (“Once foreign
intelligence acquisition has been authorized under Section 702, the
government sends written directives to electronic communication
service providers compelling their assistance in the acquisition of
communications.” (quoting PCLOB Report at 7)); Nathan
Alexander Sales, Domesticating Programmatic Surveillance: Some
Thoughts on the NSA Controversy, 10 I/S: J. L. & Pol’y for Info.
Soc’y 523, 526 (2014) (“[In] PRISM . . . the NSA targets specific
non-Americans who are reasonably believed to be located outside
the country, and also engages in bulk collection of some foreign-toforeign communications that happen to be passing through
telecommunications infrastructure in the United States.”). The
Washington Post also amended its initial report on PRISM to
suggest that “imprecision on the part of the NSA” in the wording
of its presentation left open the possibility that PRISM collection
still required the agency to request materials from the
participating companies, rather than directly from the companies’
servers. See Jonathan Hall, Washington Post Updates, Hedges on
Initial PRISM Report, Forbes (June 7, 2013, 9:08 PM),
https://perma.cc/7L6A-H22D.
12 See, e.g., United States v. Hasbajrami, 2016 WL 1029500, at *6
(E.D.N.Y. Mar. 8, 2016) (“In PRISM collection, the government
identifies the user accounts it wants to monitor and sends a
‘selector’—a specific communications facility, such as a target’s
email address or telephone number—to the relevant
communications service provider. A government directive then
compels the communications service provider to give it
communications sent to or from that selector (i.e., the government
‘tasks’ the selector).” (internal citations omitted)); Wikimedia
Found, v. NSA, 143 F. Supp. 3d 344, 348—49 (D. Md. 2015) (“Under
a surveillance program called ‘PRISM,’ U.S.-based Internet Service
Providers furnish the NSA with electronic communications that.
contain information specified by the NSA.”).

App. 60
Government has asked us to consider. See PCLOB
Report at 33-34. These authorities are substantial, and
if correct, would tend to undermine Schuchardt’s
ability to show that his own electronic communications
were seized by the PRISM program.
The problem for the Government at this stage is
that the scope of materials that a court may consider in
evaluating a facial jurisdictional challenge raised in a
motion under Rule 12(b)(1) is not unconstrained. As
with motions under Rule 12(b)(6), the court is limited
to the four corners of the complaint, “document[s]
integral to or explicitly relied upon in the complaint,”
and “any undisputedly authentic document that a
defendant attaches ... if the plaintiffs claims are
based on the document.” In re Asbestos Prods. Liability
Litig. (No. VI), 822 F.3d 125, 133 & n.7 (3d Cir. 2016)
(quoting In re Burlington Coat Factory Sec. Litig., 114
F.3d 1410,1426 (3d Cir. 1997)). Schuchardt’s pleadings
are in no way “based on” any countervailing authorities
that support the Government’s position, nor are those
authorities integral to or explicit^ relied upon by his
complaint—accordingly, we must ignore their
persuasive value, whatever it may be, at this stage of
the litigation. See Gould Elecs., 220 F.3d at 176.
Likewise, insofar as the Government’s arguments
present new information disagreeing with the factual
premises underlying Schuchardt’s claims, we cannot
consider them in this facial jurisdictional challenge,
the sole purpose of which is to test the legal sufficiency
of the plaintiffs jurisdictional averments. Instead,
disagreements concerning jurisdictional facts should be
presented in a factual challenge, at which time the
court, after allowing the plaintiff “to respond with

App. 61
evidence supporting jurisdiction,” may fully adjudicate
the parties’ dispute, including the resolution of any.
questions of fact. Id. at 177.
V
Our decision today is narrow: we hold only that
Schuchardt’s second amended complaint pleaded his
standing to sue for a violation of his Fourth
Amendment right to be free from unreasonable
searches and seizures. This does not mean that he has
standing to sue, as the Government remains free upon
remand to make a factual jurisdictional challenge to
Schuchardt’s pleading. In anticipation of such a
challenge, we provide the following guidance to the
District Court on remand.
Schuchardt has suggested that he is entitled to
jurisdictional discovery. See Transcript of Oral
Argument at 40-41, Schuchardt v. Obama, No. 15-3491
(3d Cir. May 17, 2016). We leave that question to the
District Court’s discretion with the caveat that
“jurisdictional discovery is not available merely
because the plaintiff requests it.” Lincoln Benefit Life
Ins. Co. v. AEILife, LLC, 800 F.3d 99, 108 n.38 (3d Cir.
2015). Jurisdictional discovery is not a license for the
parties to engage in a “fishing expedition,” id., and that
fact is particularly true in a case like this one, which
involves potential issues of national security. In this
very context, the Supreme Court has cautioned that
jurisdictional discovery—even if conducted in
camera—cannot be used to probe the internal (and
most likely classified) workings of the national security
apparatus of the United States. See Clapper, 131 S. Ct.
at 1149 n.4 (“[T]his type of hypothetical disclosure

App. 62
proceeding would allow a terrorist (or his attorney) to
determine whether he is currently under U.S.
surveillance simply by filing a lawsuit challenging the
Government’s surveillance program.”). For that reason,
the District Court should take care to circumscribe the
scope of discovery and any ex parte and in camera
procedures to only the factual questions necessary to
determine its jurisdiction.13
Finally, nothing in our opinion should be construed
to preclude the Government from raising any
applicable privileges barring discovery—including the
state secrets doctrine—or to suggest how the District
Court should rule on any privilege the Government
may choose to assert. See United States v. Reynolds,
345 U.S. 1, 10 (1953).
•k ■k ■k

For the stated reasons, we will vacate the District
Court’s order dismissing Schuchardt’s second amended
complaint and remand for proceedings consistent with
this opinion.

13 For example, the linchpin of Schuchardt’s standing is his
allegation that PRISM collects “all or substantially all of the e-mail
sent by American citizens.” The District Court may wish to
consider what discovery is necessary for it to adjudicate the
veracity of that allegation while permitting Schuchardt an
adequate evidentiary response. See also Jewel v. NSA, 2015 WL
545925, at *4 (N.D. Cal. Feb. 10, 2015) (holding that plaintiffs had
failed to establish their standing to challenge Upstream, another
putative NSA electronic surveillance program, because “the
evidence at summary judgment [was] insufficient to establish that
the Upstream collection process operates in the manner in which
Plaintiffs allege[d] it does”).

f

App. 63
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 15-3491
[Filed October 5, 2016]
ELLIOTT J. SCHUCHARDT,
individually and doing business
as the Schuchardt Law Firm,
on behalf of himself and all
others similarly situated,
Appellant
v.
PRESIDENT OF THE UNITED
STATES; DIRECTOR OF
NATIONAL INTELLIGENCE;
DIRECTOR OF THE NATIONAL
SECURITY AGENCY AND CHIEF
OF THE CENTRAL SECURITY
SERVICE; DIRECTOR OF THE
FEDERAL BUREAU OF
INVESTIGATION

)
)
)
)
)
)
)
)
)

)
)
)

)
)
)
)
)
)

Appeal from the United States District Court
for the Western District of Pennsylvania
(W.D. Pa. No. 2-14-cv-00705)
District Judge: Honorable Cathy Bissoon
Argued: May 17, 2016

App. 64
Before: SMITH, Chief Judge, HARDIMAN, and
NYGAARD, Circuit Judges.

JUDGMENT
This cause came to be considered on the record from
the United States District Court for the Western
District of Pennsylvania and was argued on May 17,
2016. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the
order of the United States District Court for the
Western District of Pennsylvania entered on
September 30, 2015, be and the same is hereby
VACATED and REMANDED. All of the above in
accordance with the Opinion of this Court.
No costs shall be taxed.
ATTEST:
s/Marcia M. Waldron
Clerk
Dated: October 5, 2016

App. 65

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
Civil Action No. 14-705
Judge Cathy Bissoon
[Filed September 30, 2015]
ELLIOTT SCHUCHARDT,

)
)

Plaintiff,
v.

)
)
)

BARACK H. OBAMA, et al., )
)

Defendants. )
)

MEMORANDUM AND ORDER
I. MEMORANDUM
Defendants’ Motion to Dismiss (Doc. 20) will be
granted.
INTRODUCTION
This action is one of several lawsuits arising from
recent public revelations that the United States
government, through the National Security Agency
(“NSA”), and in conjunction with various

App. 66
telecommunications and internet companies, has been
collecting data concerning the telephone and internet
activities of American citizens located within the
United States. The Plaintiff, Elliott J. Schuchardt
(“Schuchardt”), alleges that the NSA’s bulk data
collection programs violate the Fourth Amendment to
the United States Constitution by allowing the
government to seize and search records related to the
telephone and internet activities of ordinary American
citizens without demonstrating probable cause. He also
asserts claims based on the First Amendment, the
Foreign Intelligence Surveillance Act (“FISA”) and
Pennsylvania common law. He seeks declaratory and
injunctive relief as well as civil liability pursuant to 18
U.S.C. § 1810.

BACKGROUND
In order to properly contextualize the factual claims
in this litigation, a brief overview of several pertinent
statutes is warranted. In 1978, Congress enacted the
Foreign Intelligence Surveillance Act, 50 U.S.C. §§1801
et seq. (“FISA”), to “authorize and regulate certain
governmental electronic surveillance of
communications for foreign intelligence purposes.”
Clapper v. Amnesty Int’l USA. -- U.S. ~, 133 S. Ct.
1138, 1143 (2013). FISA provided a procedure for the
federal government to legally obtain domestic
electronic surveillance related to foreign targets, see 50
U.S.C. §§ 1804(a)(3) & 1805(a)(2), and created an
Article III court —the Foreign Intelligence Surveillance
Court (“FISC”) - with jurisdiction “to hear applications
for and grant orders approving” such surveillance. 50
U.S.C. §1803(a)(l).

App. 67
In the wake of the terrorist attacks of September 11,
2011, Congress passed the USA PATRIOT Act, Pub. L.
No. 107-56, § 215, which, inter alia, empowered the
FBI to seek authorization from the FISC to “require[e]
the production of any tangible things (including books,
records, papers, documents, and other items) for an
investigation ... to protect against international
terrorism.” 50 U.S.C. 1861(a)(1). Since 2006, the
government has relied on this provision “to operate a
program that has come to be called ‘bulk data
collection,’ namely, the collection, in bulk, of call
records produced by telephone companies containing
‘telephony metadata’ — the telephone numbers dialed
(incoming and outgoing), times, and durations of calls.”
See Obama v. Klavman, — F.3d ~, 2015 WL 5058403
(D.C. Cir. Aug. 28, 2015) (“Klavman II”).
In 2008, Congress amended FISA by way of the
FISA Amendments Act (“FAA”), Pub. L. No. 110-261
(2008). The pertinent FAA provision, Section 702 of
FISA, 50 U.S.C. § 1881a, “supplement[ed] pre-existing
FISA authority by creating a new framework under
which the Government may seek the FISC’s
authorization of certain foreign intelligence
surveillance targeting . . . non-U.S. persons located
abroad.” Amnesty Int’l, 133 S. Ct. at 1144. The
government relies upon the authority granted by
Section 702 to collect internet data and
communications through a program called “PRISM.” 2d
Am. Compl. (Doc. 19)
33, 35.
American citizens first learned of the government’s
bulk data collection programs through a series of
articles published in The Guardian, a British

App. 68
newspaper, in June 2013. IcL Each article relied on
leaked documents provided by a former NSA
government contractor, Edward Snowden. Id^
24-27,
33-39. The first of these articles, published on June 5,
2013, revealed a leaked order from the FISC directing
Verizon Business Network Services, Inc. (“Verizon
Business”) to produce “call detail records or ‘telephony
metadata’” to the NSA for all telephone calls made
through its systems within the United States
(including entirely-domestic calls). IcL 1] 33. Shortly
thereafter, the government acknowledged that the
FISC order was genuine and that it was part of a
broader program of bulk collection of telephone
metadata. IcL U 34; ACLU v. Clapper. 785 F.3d 787, 796
(2d Cir. 2015).
The following day, June 6, 2013, The Guardian
published a second article detailing the manner in
which the PRISM collection program was used to
intercept, access and store e-mail and other internet
data created by United States citizens using large
internet companies, such as Yahoo, Google, Facebook,
Dropbox and Apple. Id. ^ 35-38. According to the
leaked documents, the government began collecting
information from, inter alia, Yahoo on March 12, 2008;
from Google on January 14, 2009; from Facebook on
June 3, 2009; and from Apple in October 2012. IcT ^ 39.
Discussing the scope of the government’s data
collection abilities, Snowden, in a series of public
statements and interviews, averred that he could
search, seize, and read anyone’s electronic
communications at any time from his desk during his
time working with the NSA. Id.
45-46.

App. 69
Since those revelations, several former NSA
employees and whistleblowers have stepped forward to
supply further details concerning the scope and
breadth of the government’s data collection programs.1
William Binney, a former senior employee of the NSA,
stated that the NSA used a computer program to collect
and search domestic internet traffic, a process known
as “data-mining.” IcL 1HI 9, 19. Mark Klein, a former
AT&T technician, revealed that the NSA was copying
e-mail communications on AT&T’s network by means
of a secret faciLhy set up in San Francisco. IcL ^ 13.
Thomas Drake, another NSA employee, asserted that
the NSA has been, or may be, obtaining the ability to
seize and store “most electronic communications.” IcL
20. A third former NSA employee, Kirk Wiebe,
corroborated the allegations made by Drake and
Binney. IcL U 21.
Based on the averments above, as well as various
public interviews conducted by Snowden, Schuchardt
alleges that the NSA is collecting and storing “massive
quantities of e-mail and other data created by United
States citizens.” IcL U 36. Because he utilizes several
major internet and telecommunications companies including Gmail, Google, Yahoo, Dropbox, Facebook
and Verizon Wireless - Schuchardt contends that the
government must, therefore, be “unlawfully
intercepting, accessing, monitoring and/or storing the
private communications of the Plaintiff, made or stored
through such services.” IcL UH 86-87. This presumption

1 Schuchardt has borrowed the majority of his allegations from
affidavits filed in another lawsuit, Jewel v. N.S.A.. 2015 WL
545925 (N.D. Cal. Feb. 10, 2015).

App. 70
underpins each of Plaintiff s claims, and he purports to
represent a “nationwide class” of “American citizens”
similarly-situated. IdL at ^[ 76.
ANALYSIS
Resolution of the instant Motion turns entirely on
the issue of standing. In order to establish standing to
sue, a plaintiff must show that he has suffered a
“concrete and particularized” injury. Lujan v.
Defenders of Wildlife. 504 U.S. 555, 560-61 (1992). For
an injury to be sufficiently particularized, the plaintiff
must allege “such a personal stake in the outcome of
the controversy as to warrant his invocation of federalcourt jurisdiction.” Summers v. Earth Island Inst.. 555
U.S. 488, 493 (2009) (internal quotations omitted)
(emphasis in original). An abstract, generalized
grievance that is “common [to] all members of the
public” will not suffice. Schlesinger v. Reservists
Comm, to Stop the War. 418 U.S. 208, 220 (1974).
The crux of the government’s Motion is that
Schuchardt lacks standing because he has not
plausibly alleged that the government has ever
collected any of his communications. In other words,
even if data-collection has occurred, Schuchardt has
provided no facts demonstrating that he is “among the
injured.” Lujan. 504 U.S. at 563.
Several recent decisions have addressed the issue of
standing in the context of the government’s bulk datacollection programs. In Amnesty International v.
Clapper, the United States Supreme Court addressed
a challenge to the constitutionality of Section 702
brought by a group of plaintiffs who alleged that their

App. 71
communications were likely among those intercepted
because they regularly communicated with foreign
persons who were probable targets of government
surveillance. Amnesty Int’l.. 133 S. Ct. at 1145.
Although the plaintiffs had no specific knowledge as to
how the government’s targeting practices worked, they
provided evidence that: they had engaged in
communications that fell within the purview of Section
702; that the government had a strong motive to
intercept those communications because of the subject
matter and identities involved; that the government
had already intercepted large numbers of calls and
emails involving a specific individual who
communicated regularly with the plaintiffs; and that
the government had the capacity to intercept the
aforementioned communications, hi at 1157-59. The
Court held that these allegations were inadequate to
establish standing because they relied on a “speculative
chain of possibilities” and displayed “no actual
knowledge” as to whether the plaintiffs ever were
specifically targeted. Id. at 1148.2
In ACLU v. Clapper, a group of current and former
Verizon Business customers challenged the
government’s data collection program based on several
FISC orders that had been declassified by the
government. Clapper, 785 F.3d 787, 796 (2d Cir. 2015).
The Court of Appeals for the Second Circuit concluded
that the plaintiffs had standing because the
government’s “own orders demonstrate [ed] that

2 Unlike the instant case, Amnesty International did not involve
allegations that the government has relied on Section 702 to collect
and store entirely-domestic communications.

App.72
[plaintiffs’] call records are indeed among those
collected as part of the telephone metadata program.”
Id. at 801. The court observed:
[Plaintiffs’]
alleged injury requires no
speculation whatsoever as to how events will
unfold under § 215 - [plaintiffs’] records (among
those of numerous others) have been targeted for
seizure by the government; the government has
used the challenged statute to effect that
seizure; the orders have been approved by the
FISC; and the records have been collected.
Id. at 801-802.
The Court of Appeals for the Ninth Circuit reached
the same conclusion in Jewel v. National Security
Agency, a challenge to the NSA’s bulk data-collection
program brought by a group of current and former
subscribers to AT&T’s telephone and/or internet
services. Jewel v. National Security Agency. 673 F.3d
902, 906 (9th Cir. 2011). The plaintiffs relied heavily on
allegations from a former AT&T employee that the
government had created a secure room at an AT&T
facility in San Francisco for the purpose of monitoring
the internet and telephone activities of all AT&T
customers. Ich The named plaintiff, Jewel, alleged that
she was specifically affected because AT&T “diverted
all of her internet traffic into ‘SG3 Secure Rooms’ in
AT&T facilities all over the country, including AT&T’s
Folsom Street facility in San Francisco, ‘and
information of interest [was] transmitted from the
equipment in the SG3 Secure Rooms to the NSA based
on rules programmed by the NSA.’” Id. The district
court dismissed on standing grounds, concluding that

App. 73
the complaint lacked “allegations specifically linking
any of the plaintiffs to the alleged surveillance
activities.” Id- at 907.
The Court of Appeals for the Ninth Circuit reversed,
finding that Jewel had alleged a sufficiently concrete
and particularized injury based on her “highly specific”
allegations concerning the operation of the alleged
surveillance operation. The court noted that the
complaint “described in detail the particular electronic
communications equipment used (‘4ESS switch’ and
‘WorldNet Internet Room’) at the particular AT&T
facility (Folsom Street, San Francisco) where Jewel’s
personal and private communications were allegedly
intercepted in a secret room known as the ‘SG3 Secure
Room.’” Id. at 910 (internal quotations omitted). The
court emphasized that the specificity of Jewel’s
allegations heavily influenced its decision:
Significantly, Jewel alleged with particularity
that her communications were part of the
dragnet. The complaint focused on AT&T and
was not a scattershot incorporation of all major
telecommunications companies or a blanket
policy challenge. Jewel’s complaint also honed in
on AT&T’s Folsom Street facility, through which
all of Jewel’s communications allegedly passed
and were captured.
Id. (first emphasis in original, second added).
Another recent decision, Klavman v Obama,
involved a challenge to the bulk data-collection
program brought by users of Verizon Wireless
telecommunications services. The plaintiffs argued that

App. 74
they had standing based on an FISC order targeting
Verizon Business (an entity distinct from Verizon
Wireless) and by virtue of the sheer scope of the
government’s data collection efforts. Klavman. 957
F.Supp.2d at 26-27. The district court agreed, opining
that the government’s attempt to “create a
comprehensive metadata database” meant that it “must
have collected metadata from Verizon Wireless, the
single largest wireless carrier in the United States, as
well as AT&T and Sprint, the second and third-largest
carriers.” Id. at 27 (emphasis in original). The court
granted a preliminary injunction barring the
government from any further data collection. Id. at 43.
On review, the Court of Appeals for the District of
Columbia vacated the preliminary injunction and
remanded with instructions for the district court to
consider whether a limited period of jurisdictional
discovery was appropriate. Klavman II. 2015 WL
5058403, at *3. In a decision featuring separate
opinions from each of the three judges, the panel
agreed that the district court had erred in granting the
preliminary injunction, but disagreed as to whether the
plaintiffs had established standing. Id.
Writing first, Judge Janice Brown emphasized that
the plaintiffs had provided “specific evidence that the
government operate[d] a bulk-telephony metadata
program that collects subscriber information from
domestic telecommunications providers, including
Verizon Business Network Services.” Id. at *4. She
agreed with the district court that, in order to create a
database of any appreciable value, the government
must also necessarily collect metadata from large

App. 75
carriers such as Verizon Wireless. Id- Relying on this
inference, Judge Brown held that the plaintiffs had
“barely fulfilled the requirements for standing at this
threshold stage” but “[fell] short of meeting the higher
burden of proof required for a preliminary injunction.”
Id.
Judge Stephen Williams agreed that the plaintiffs
were not entitled to preliminary relief, and also
questioned whether they had satisfied their burden as
to standing. He noted that the “[plaintiffs’ contention
that the government is collecting data from Verizon
Wireless . .. depends entirely on an inference from the
existence of the bulk collection program itself. Such a
program would be ineffective, they say, unless the
government were collecting metadata from every large
carrier such as Verizon Wireless; ergo it must be
collecting such data.” Id at *5. Judge Williams
observed that this type of speculative inference
concerning the government’s capabilities was “no
stronger than the [Amnesty International! plaintiffs’
assertions regarding the government’s motive and
capacity to target their communications.” Id. at *7. He
concluded that plaintiffs had “failed to demonstrate a
‘substantial likelihood’ that the government is
collecting [data] from Verizon Wireless” or that
plaintiffs “are otherwise suffering any cognizable
injury.” Id at *8. Nonetheless, Judge Williams joined
Judge Brown in recommending that the matter be
remanded for jurisdictional discovery. Id.
The third member of the panel, Judge David
Sentelle, concluded that the case should be dismissed
entirely:

App. 76
[P]laintiffs never in any fashion demonstrate
that the government is or has been collecting...
records from their telecommunications provider,
nor that it will do so. Briefly put, and discussed
in more detail by Judge Williams, plaintiffs’
theory is that because it is a big collection and
they use a big carrier, the government must be
getting at their records. While this may be a
better-than-usual conjecture, it is nonetheless no
more than conjecture.
As Judge Williams further notes, “[Amnesty
International! represents the Supreme Court’s
most recent evaluation of comparable inferences
and cuts strongly against plaintiffs’ claim that
they have a substantial likelihood of prevailing
as to standing.” While [Amnesty International!
involved collection under a different statutory
authorization, the standing claims of the
plaintiffs before us and the plaintiffs in that case
are markedly similar. In fact, the plaintiffs’
claim before us is weaker than that of the
[Amnesty International! plaintiffs. [They] at
least claimed that the government had
previously targeted them or someone with whom
they were communicating. The plaintiffs before
us make no such claim.
k k k k k k k

Plaintiffs have not demonstrated that they
suffer injury from the government’s collection of
records. They have certainly not shown an
“injury in fact” that is “actual or imminent, not
conjectural or hypothetical.” ... I therefore

App. 77
would vacate the preliminary injunction as
having been granted without jurisdiction by the
district court, and I would remand the case, not
for further proceedings, but for dismissal.
Id. at *9-10.
In reviewing the foregoing decisions, a meaningful
distinction emerges. In situations where plaintiffs are
able to allege with some degree of particularity that
their own communications were specifically targeted —
for example, by citing a leaked FISC order or relying on
a detailed insider account - courts have concluded that
the particularity requirement has been satisfied. See
Clapper. 785 F.3d at 801 (noting that the plaintiffs
were specifically targeted by an FISC order and that
their data was unquestionably collected); Jewel. 673
F.3d at 910 (“Significantly, Jewel alleged with
particularity that her communications were part of the
dragnet.”) (emphasis in original). On the other hand,
courts have refused to find standing based on naked
averments that an individual’s communications must
have been seized because the government operates a
data collection program and the individual utilized the
service of a large telecommunications company or
companies. See Amnesty Int’l, 133 S. Ct. at 1148
(holding that claims based on a “speculative chain of
possibilities” are insufficient); Klavman II. 2015 WL
5058403, at *5-10 (criticizing plaintiffs’ reliance on
conjecture to attempt to establish standing).
Schuchardt falls squarely within the second
category. In reliance on publicly available information,
only, he has outlined government programs aimed at
the wide-scale collection of communications data. He

App. 78
also alleges - again, based on media reports and other
publicly-available information - that the government
may have the capability to collect telephone, email and
internet traffic from every American citizen.
Unlike in Jewel and ACLU. Schuchardt has
identified no facts from which the Court reasonably
might infer that his own communications have been
targeted, seized or stored. As his pleadings so much as
admit, he is indistinguishable from every other
American subscribing to the services of a major
telephone and/or internet service provider.3
Schuchardt’s only discernable distinction is his
heightened personal-interest in the subject, and, while
his civicmindedness maybe laudable in other contexts,
is insufficient to confer standing. See Jewel at 910
(rejecting sufficiency of “scattershot” allegations
encompassing “all major telecommunications
companies” and/or “a blanket policy challenge” made in
the absence of personal standing); see also Schlesinger.
418 U.S. at 220 (generalized grievances “common [to]
all members of the public” do not confer standing).
For all of the reasons stated above, the Court hereby
enters the following:
II. ORDER
Defendants’ Motion to Dismiss (Doc. 20) is
GRANTED.

3 Cf. discussion supra (highlighting Plaintiffs class-allegations,
purporting to represent “a nationwide” class of all “American
citizens” who are subscribers of several major internet service
providers, and Verizon).

App. 79
September 30, 2015

sXCathv Bissoon
Cathy Bissoon
United States District Judge

cc (via ECF email notification):
All Counsel of Record

App. 80
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
Civil Action No. 14-705
Judge Cathy Bissoon
[Filed September 30, 2015]
ELLIOTT SCHUCHARDT, )
)

Plaintiff,
v.

)
)
)

BARACK H. OBAMA, et al., )
)

Defendants. )
)

JUDGMENT ORDER
Consistent with the Memorandum and Order
entered today, FINAL JUDGMENT hereby is entered
against Plaintiff under Rule 58 of the Federal Rules of
Civil Procedure. This case has been marked closed.
IT IS SO ORDERED.
September 30, 2015

s\Cathv Bissoon
Cathy Bissoon
United States District Judge

cc (via ECF email notification):
All Counsel of Record

Additional material
from this filing is
available in the
Clerk's Office.

